<html>
<title> - POOL SAFETY: THE TENTH ANNIVERSARY OF THE VIRGINIA GRAEME BAKER POOL AND SPA SAFETY ACT</title>
<body><pre>[Senate Hearing 115-220]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-220

                   POOL SAFETY: THE TENTH ANNIVERSARY
                      OF THE VIRGINIA GRAEME BAKER
                        POOL AND SPA SAFETY ACT

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON CONSUMER PROTECTION,
                       PRODUCT SAFETY, INSURANCE,
                           AND DATA SECURITY

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 24, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
                           

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


                Available online: http://www.govinfo.gov
                
                
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
22-973 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4d2a3d220d2e383e392528213d632e222063">[email&#160;protected]</a>                 
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION      
              
                           ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 ------                                

  SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, INSURANCE, AND 
                             DATA SECURITY

JERRY MORAN, Kansas, Chairman        RICHARD BLUMENTHAL, Connecticut, 
ROY BLUNT, Missouri                      Ranking
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       TAMMY DUCKWORTH, Illinois
SHELLEY MOORE CAPITO, West Virginia  MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 24, 2017.....................................     1
Statement of Senator Moran.......................................     1
    Prepared statement...........................................    20
Statement of Senator Blumenthal..................................    21
Statement of Senator Klobuchar...................................    23
Statement of Senator Cortez Masto................................    26

                               Witnesses

Nancy Baker, Mother of Virginia Graeme Baker.....................     1
    Prepared statement...........................................     3
Karen Cohn, Co-Founder, The ZAC Foundation.......................     6
    Prepared statement...........................................     8
Richard Gottwald, President and Chief Executive Officer, The 
  Association of Pool & Spa Professionals........................    10
    Prepared statement...........................................    11
Connie Harvey, Director, Aquatics Centennial Initiatives, 
  American Red Cross.............................................    13
    Prepared statement...........................................    15

                                Appendix

Response to written questions submitted by Hon. Richard 
  Blumenthal to:
    Nancy Baker..................................................    33
    Karen Cohn...................................................    34
    Richard Gottwald.............................................    35
    Connie Harvey................................................    45

 
                   POOL SAFETY: THE TENTH ANNIVERSARY
                      OF THE VIRGINIA GRAEME BAKER
                        POOL AND SPA SAFETY ACT

                              ----------                              


                        WEDNESDAY, MAY 24, 2017

                               U.S. Senate,
      Subcommittee on Consumer Protection, Product 
              Safety, Insurance, and Data Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:51 p.m. in 
room SR-253, Dirksen Senate Office Building, Hon. Jerry Moran, 
Chairman of the Subcommittee, presiding.
    Present: Senators Moran [presiding], Blumenthal, Klobuchar, 
Cortez Masto, and Hassan.

            OPENING STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    The Chairman. Good afternoon, everyone. Thank you for your 
patience, particularly our witnesses, but also those in 
attendance. Senator Blumenthal and I serve on the Veterans 
Committee. We were required for a quorum. Both of these 
committees met at 2:30 p.m. this afternoon. He is en route.
    And, Senator Klobuchar, thank you for joining us. Others as 
well, we're glad to have you. And I appreciate my colleagues 
being here.
    As you know, in addition to the problems of a late start, 
we have two votes scheduled at 3:00 p.m. My intention is to 
forgo opening statements and get directly to the witnesses in 
hopes that we can hear your testimony before we depart for 
those votes. We'll then recess and I think that's my intention. 
It's what Senator Blumenthal and I talked about. We will recess 
during the two votes. We'll try to limit that to being there at 
the very end of the first vote and the very beginning of the 
second vote, and then we'll be back to conclude the hearing for 
additional questions.
    So with that, I will even forego introducing the witnesses. 
Let's take your testimony. We'll get back to more formalities 
once we return from the vote.
    Ms. Baker, you are recognized for your statement.

                   STATEMENT OF NANCY BAKER, 
                MOTHER OF VIRGINIA GRAEME BAKER

    Ms. Baker. Good afternoon. I would like to thank Chairman 
Thune, Senator Moran, Senator Blumenthal, for holding this 
hearing to address drowning and to celebrate the anniversary of 
the Virginia Graeme Baker Pool and Spa Safety Act. Forgive my 
tears, I say her name sometimes, and I just remember her. And 
thank you, my friend.
    Anyway, I would like to recognize some important leaders in 
this. I would like to recognize Senator Klobuchar, who 
persisted, never gave up; Congresswoman Debbie Wasserman 
Schultz; George Allen; and my good friend and invaluable 
partner, Alan Korn, who worked with Safe Kids and helped me 
along the way.
    I'm honored to be with my friends, Karen Cohn, and Scott 
Taylor, who also lost their beloved children and are powerful 
advocates in drowning prevention. I'm grateful to testify in 
memory of a child that I dearly miss.
    I became involved in drowning prevention in June of 2002 
when I lost my daughter, Graeme, in a residential pool spa. 
Well over 50 people had gathered for a backyard graduation 
party around a pool where she drowned in 4 feet of water. Not 
one of the dozens of people gathered on the pool deck saw it 
happening. Graeme, an excellent swimmer, I might add the winner 
of the dive team competition that year, had slipped underwater 
and become entrapped on a flat drain of a pool spa. It looked 
just like this. [Witness held up an example of the drain.] By 
the time they lifted her up, however, the cement from the 
bottom of the pool and the drain itself had cracked. She sat on 
it. Her buttocks were sealing it. And it resulted in a 
tremendous vacuum, pinning her to the bottom with over 700 
pounds of pressure. It was a death trap.
    It was in May 2006 that I had the great honor of testifying 
before this committee on drowning as the public health crisis 
that it was, and it unfortunately remains. The role of 
government in many issues related to the safety of kids is 
without question a critical one.
    In vaccinations, smoke alarms, car safety, and now drowning 
prevention, the government has played an active role in 
protecting kids. Proactively and with specificity, this 
legislation addressed entrapment, and we can celebrate the fact 
that since its passage, not one child has died due to 
entrapment in a public pool. Prior to its passage, year after 
year there were several reported incidences, many fatal, and 
one more horrifying and violent than the next. We're all aware 
that accidents from more traditional forms of drowning remain 
high.
    VGB, which is the shortened version of the Virginia Graeme 
Baker Pool and Spa Safety Act, insisted on certain specific 
mandates in the design components of public pools, enabled the 
CPSC to launch a remarkably effective public safety campaign, 
and provided grants to states to encourage education and 
compliance. These don't extend to private pools, and we rely on 
the industry to apply the same safeguards in the maintenance 
and the construction of existing and new residential pools.
    I recently gave a keynote address at the National Drowning 
Prevention Alliance, where I heard 30 members of a group called 
``Families United Against Drowning '' share the stories of 
their loved ones' tragic drownings. The majority lost their 
child due to a momentary lapse in supervision, and tragically, 
these children gained unfettered access to the pool.
    I'm committed to becoming part of an effort to address this 
tragic loss of life. The work of private organizations, as well 
as the Pool Safely program of the CPSC, has had a positive 
impact, though we will never know the lives that have been 
saved. We do know that swimming lessons matter, drowning 
prevention education is critical, all of it works to save 
lives, yet the tragic statistics indicate that work remains to 
be done. Drowning remains the leading cause of unintentional 
injury and death worldwide, and the highest rates are among 
children.
    I believe that the positive outcome of the legislation is 
attributable to the intersecting components of the National 
Public Safety Campaign, the efforts of dedicated private 
organizations, and the mandated requirements that the 
legislation prescribed to prevent entrapment. I would like to 
see that multifaceted approach taken in order to address the 
loss of life due to kids undetected gaining access to their 
backyard pools.
    Were there to be a requirement that new pools be built to 
include four-sided barrier fencing, closing and locking gates, 
and alarm systems, innocent lives would be saved. A solution to 
a stubborn threat to children's health would then incorporate 
drowning prevention education initiatives and a new era of pool 
design and construction driven by safety considerations first.
    Let's move courageously to address the loss of life that 
continues to occur. This is not political, it's not 
ideological. These are adults and these are our kids. Children 
alone are drowning at a rate of two per day. Most are dying in 
their own backyards.
    I hope to see this Committee continue to advocate to ensure 
the efficacy of the Virginia Graeme Baker Pool and Spa Safety 
Act and to strengthen provisions within it to proactively 
address the risk of drowning. This hearing alone represents an 
enormous shift in the recognition of drowning as the 
significant public health emergency that it is.
    Thank you so much for having me today.
    [The prepared statement of Ms. Baker follows:]

   Prepared Statement of Nancy Baker, Mother of Virginia Graeme Baker
I. Introduction
    I would like to thank Chairman Thune, Senator Moran and Senator 
Blumenthal for holding this hearing. You have brought together 
important partners and stakeholders to celebrate the anniversary of the 
Virginia Graeme Baker Pool and Spa Safety Act. It is an honor to be 
here to testify, in memory of a child I dearly miss, and on behalf of 
many who remain committed to the safety and well being of children. I'm 
pleased that some who worked on the passage of this legislation ten 
years ago are in attendance today. I'd like to recognize the hard work 
and commitment of my friend, a man of great character and a champion 
for children, Alan Korn. Early on, I partnered with him and Safe Kids 
Worldwide and I could not have done my work without him. I also want to 
thank Senator Klobuchar, Congresswoman Debbie Wasserman-Schultz and 
countless staff and private citizens who were unwavering in their 
support of its intent and played an instrumental part in the passage of 
this legislation. To this day I am comforted by the fact that so many 
good people came together in a concerted effort to make sure that what 
happened to my daughter would not happen to another child.
II. Graeme's Story
    It was never my intention to become involved in drowning 
prevention. I am a mother of five and being a parent to my five girls 
has been the joy and challenge of my life. I am also an artist and for 
many years have pursued that as a vocation and profession. However, on 
June 15, 2002, I became an advocate for pool safety, when my seven-
year-old daughter, Graeme, drowned in a residential pool during a large 
gathering to honor graduating high school students. On that day, with 
well over fifty people gathered for a backyard barbeque around a pool, 
one of my children ran to me in horror to tell me that her sister was 
at the bottom of a pool spa directly connected to the pool. I ran with 
her to the edge of this spa and could not see into the water, as it was 
painted dark blue and the bubbling water obscured the surface. She 
literally disappeared in a moment, drowned in four feet of water and 
none of the dozens gathered on the pool deck, including me, saw it 
happening. Her older sister screamed that she was there and I jumped 
in, went underwater and discovered my child at the bottom. I tried to 
pull her up and was unable. I kept coming up for air, screaming for 
help and attempting to pull her to the surface. It was impossible. 
Graeme, an excellent swimmer, member of our neighborhood dive team had 
slipped underwater and become entrapped on the flat drain of this spa. 
She sat on the drain, her buttocks sealing it and that resulted in a 
tremendous vacuum, pinning her to the bottom with over seven hundred 
pounds of pressure. She was helpless in getting free from the force at 
the drain and in the end it took two adults to release her. She was 
flown to Fairfax Hospital and there I was told that the doctors had 
been unable to revive her and that she'd died. It took years to 
understand and absorb what had happened. I experienced a grief so long 
and dark. My children, our family and our community all suffered from 
the trauma of her loss.
    It was a horrific accident and in time I gained understanding of 
the many things that contributed to her death. At the party there was 
no lifeguard, or person whose sole responsibility was to watch the 
water. This spa was old, built with a single drain that was attached to 
the pool pump and once blocked, the pump continued to pull water, then 
air, leaving her body cemented to the drain. The tub was painted like a 
lagoon, bubbles created by the jets, making it impossible to see 
beneath the surface. There was no emergency pump shut off or device 
that could detect the sudden change in the pressure to free her.
III. Into Advocacy
    When our family arrived for her funeral, her grandfather, James A. 
Baker III, devastated by the circumstances of her death and the 
collective sorrow of her loss, pulled me aside and asked me to try to 
do something to address this danger. He offered to help me in any way 
he could. It did take time, as my children needed me as never before 
and we had a lot of healing to do. Yet along the way, seeking some 
greater understanding, I began to research this issue and learned that 
for years these accidents had been occurring and as a result technology 
and design advancements had been developed that, if installed, would 
prevent entrapments. However, they were not widely used and building 
codes and standards were inconsistent from one jurisdiction to the 
next.
    Early in 2004, I visited the offices of Safe Kids Worldwide, which 
I had read was dedicated to preventing accidental death and injury of 
children. I told them what had happened to my daughter and in time we 
agreed to work together to address entrapment and other forms of 
drowning. The number of children that died in drowning accidents of all 
kinds was staggering and I felt compelled to be one authentic, voice in 
an effort to address it. I wanted to share our experience, to honor my 
daughter's memory and somehow allow her death to serve as a catalyst to 
prevent death and injury to others.
    It was on May 3, 2006, that I had the privilege of appearing before 
this committee to testify and provide a written statement urging 
Congress to act on behalf of children to ensure their safety in pools 
and spas. Some of you may remember that Senator Ted Stevens, Chairman 
of the Commerce Committee, after hearing testimony that day describing 
the pervasive loss of life by drowning, announced to all in the room 
that the Committee would act. George Allen, then Chairman of the 
Subcommittee, followed through. It was their leadership and commitment 
that gave rise to the effort of so many to ultimately craft a bill 
whose passage we are celebrating today.
    The role of government in many issues relating to the safety of 
children is without question a critical one. In so many instances; 
vaccinations, smoke alarms, car safety and many others the government 
has played a critical and active role in establishing standards to 
protect children in response to an immediate threat. The Virginia 
Graeme Baker Pool and Spa Safety Act is one such effort and it is an 
example of many constituencies working together, engaging in debate and 
reconciliation in order to remedy a public health crisis. With 
specificity, in the form of mandated changes in design and 
installation, the legislation addressed entrapment and all of us here 
can celebrate the fact that since its passage not one child has died 
due to entrapment in a public pool. Prior to this becoming law, each 
year there were several reported incidences, some of which were fatal, 
one more violent and horrifying than the next.
    VGB is a shining example of government working the way it is 
supposed to, to protect children. Ten years ago, members of Congress, 
stakeholders, industry representatives and parents all worked together 
toward a common goal and the validity of that effort has been affirmed 
by the statistics.
IV. Remaining Work To Be Done
    As encouraged as I am by the elimination of incidences of 
entrapment in public pools, I am also aware, given the reported number 
of deaths due to the more traditional forms of drowning, that there 
remains work to be done. VGB insisted on the manufacture and sale of 
anti-entrapment drain covers and on their installation in public pool 
environments. It requires multiple layers of protections to be 
installed in public pools, depending upon the inherent risks in their 
construction and design. These requirements have eliminated the 
possibility of entrapment in compliant public pool settings. The 
changes and regulations that apply to these pools do not extend to 
private pools. The risk of entrapment remains and we, as citizens and 
concerned parents, must rely on pool industry leaders and safety 
advocates to apply these same safeguards in the maintenance and 
construction of existing and new pools.
    Another important aspect of the legislation is the public safety 
education program enacted by the CPSC, entitled Pool Safely, which 
involves PSA's, partnerships with local organizations and a vital 
authoritative voice to educate the public on drowning prevention. I 
recently gave a keynote address at the National Drowning Prevention 
Alliance, where I listened to a presentation by members of an 
organization called Families United Against Drowning. Each family 
testified to the acting Chairman of the CPSC, sharing the specific 
circumstances of their child's tragic death. The vast majority had died 
due to an unintentional and momentary lapse of supervision either 
within the home or backyard where an innocent child gained unfettered 
access to a backyard residential pool. There was a resounding and 
repeated message from those parents; that everyone in the home thought 
they knew where the child was, that it happened in a silent moment, 
that they had felt that it could never happen here, that it had been 
their intention to build a barrier to the pool, that the alarms on the 
doors had been disarmed, that a gate had inadvertently been left open. 
I am committed to becoming part of an effort to address this tragic 
loss of life. There is no doubt that the work of private foundations 
and organizations, as well as the Pool Safely program of the CPSC has 
had a positive impact. We will never know the lives that have been 
saved; yet we do know that swimming lessons, drowning prevention 
awareness and education in active supervision are critical in saving 
lives. Yet the tragic statistics on drowning indicate that further 
action needs to be pursued by public, private and industry partners.
    Still today, far too many are suffering permanent disability or 
dying as a result of accidents occurring in pools and spas across this 
country. The following is an excerpt of recent information published by 
the Centers for Disease Control and Prevention:

    Drowning is a leading cause of unintentional injury death 
worldwide, and the highest rates are among children. Overall, drowning 
death rates in the United States have declined in the last decade; 
however, drowning is the leading cause of injury death among children 
aged 1-4 years. May 2, 2016

  <bullet> From 2005-2014, there were an average of 3,536 fatal 
        unintentional drownings (non-boating related) annually in the 
        United States--about ten deaths per day. An additional 332 
        people died each year from drowning in boating-related 
        incidents.

  <bullet> About one in five people who die from drowning are children 
        14 and younger. For every child who dies from drowning, another 
        five receive emergency department care for nonfatal submersion 
        injuries.

  <bullet> More than 50 percent of drowning victims treated in 
        emergency departments (EDs) require hospitalization or transfer 
        for further care (compared with a hospitalization rate of about 
        6 percent for all unintentional injuries). These nonfatal 
        drowning injuries can cause severe brain damage that may result 
        in long-term disabilities such as memory problems, learning 
        disabilities, and permanent loss of basic functioning (e.g., 
        permanent vegetative state).

    I believe that the positive outcome of the legislation we celebrate 
today in addressing entrapment can be attributed to the national public 
safety campaign, the efforts of dedicated private drowning prevention 
foundations and organizations and the mandated requirements that the 
legislation prescribed. I am inspired by the work of the CPSC, the Zac 
Foundation and Abbey's Hope. I would like to see that multi-faceted 
approach taken in order to address the loss of life due to children 
having access to pools in their own homes. We know that it's been 
effective. I believe that the government has a role to play in setting 
a safety standard, which in time will create a new cultural norm. Were 
there to be a requirement that new pools be built to include four 
sided, barrier fencing, self closing and locking gates and alarm 
systems I have no doubt that innocent lives would be saved.
    In doing so, a solution to a seemingly intractable threat to 
children's health would be met by a specific solution, which public and 
private entities could unite on to foster consistency in drowning 
prevention and a framework for innovative pool design and construction 
driven by safety first.
V. Conclusion
    Please, let us move courageously to address the huge loss of life 
that continues to occur from coast to coast in this country. This is 
not political or ideological. These are adults and they are our 
children. Children alone are drowning at a rate of two per day. Most 
are dying in their own backyards. It is a fact that each aspect of the 
multi-pronged approach to entrapment contributed to the success of the 
Virginia Graeme Baker Pool and Spa Safety Act in this area of drowning 
prevention. I am convinced that were there a similar requirement, a 
specific standard set, regarding barrier fencing in private pools, we 
would see a greater positive impact on the overall incidences of 
childhood drowning. Residential pools would then conform to two 
realities; that what we value most is life itself and that we 
understand and have addressed the inherent risk involved in pools. In 
the future, it is my hope that new pool design and construction will 
serve to reflect these life saving principles.
    It is my great honor to appear in this important hearing and I hope 
to be a continued advocate and partner with all of those in attendance 
today to maintain and ensure the continued success of the Virginia 
Graeme Baker Pool and Spa Safety Act and to strengthen provisions 
within it to proactively and courageously address the continued risk of 
drowning. I offer my sincere thanks to those of you who are members of 
this committee and work every day to protect our children. It's my hope 
that you will contact me to provide any assistance you may need in your 
efforts to reduce drowning accidents across the country. I want to do 
what I can for you, for my daughter, for the memory of the many 
children who have died and for those who won't due to your leadership. 
This hearing alone represents a tremendous shift in the recognition of 
drowning as the significant public health emergency that it is.

    The Chairman. Ms. Baker, thank you very much for your 
heartfelt testimony. I'm sorry for the circumstances for which 
you're here, but I commend you for using a tragedy to save 
lives of other people, and we're honored by your presence. You 
did mention the role of Senator Allen, and I wanted to 
recognize that the former Chairman of this Subcommittee is in 
the room, and we very much appreciate your presence. Thank you 
very much, Senator.
    [Applause.]
    The Chairman. I didn't realize you would get so much 
applause and delay the hearing, Senator Allen.
    [Laughter.]
    The Chairman. I would now recognize Ms. Cohn for her 
testimony.

             STATEMENT OF KAREN COHN, CO-FOUNDER, 
                       THE ZAC FOUNDATION

    Ms. Cohn. Good afternoon. Thank you so much for having me 
here. Chairman Moran, Ranking Member Blumenthal, and members of 
the Subcommittee, it is an honor to appear before you and a 
privilege to be here with this distinguished panel.
    As I appear before this Subcommittee today, my heart is 
with the many families who have endured similar losses from 
drowning. Mr. Chairman, it has been 10 years, 10 years since 
this Committee led the charge along with Nancy Baker, Katey and 
Scott Taylor, and others to try to eliminate incidences of pool 
and spa drain entrapment in the Virginia Graeme Baker law, and 
10 very difficult years since we lost our son, Zachary, who 
tragically became entrapped in our backyard pool.
    Zachary was an excellent swimmer, and his arm became stuck, 
and despite my husband and several other adults, the suction 
was simply too strong, and we couldn't release him. Zachary was 
six. He had his entire life ahead of him. And we miss him 
dearly.
    Like many parents, we thought we had done everything we 
could to protect our children around the water, like enrolling 
them in swim lessons, setting the rules for behavior around the 
pool, and ensuring intense supervision, but we had no idea what 
danger lurked in our own backyard pool.
    Since his passing, Zachary's legacy has touched the lives 
of thousands through a foundation started by my husband, Brian, 
and I to honor Zachary, and to offer programming to teach 
children and families about water safety. It is called the ZAC 
Foundation. We have written a children's book, partnered with 
the American Red Cross in support of their Centennial campaign 
to drive down drownings, and with the Boys and Girls Clubs of 
America to stage what we call the ZAC Camp. It's designed to 
provide water safety instruction to underserved children in 
cities across America. And to date, I am pleased to inform this 
Subcommittee that more than 10,000 children in 22 states have 
gone through ZAC Camps, and more than 80 million Americans have 
received our message through our media efforts.
    To most Americans, drowning is something that happens to 
somebody else, somewhere else--something that you hear about in 
the news or read about in the paper. But what most do not know 
is that drowning is the second leading cause of accidental 
death of children under 14 and the number one cause of 
accidental death for children 1 to 4 years old.
    Mr. Chairman, according to data released this week by the 
CPSC, we lose more than eight Americans to drowning every 
single day, or more than 3,200 Americans to drowning or 
boating-related deaths each year. When you do the math, you 
quickly realize that since VGB was signed into law, more than 
32,000 Americans have drowned or enough to fill Kauffman 
Stadium, where the Chairman's Kansas City Royals play. I'll say 
it again, 32,000 Americans.
    Mr. Chairman, I can assure you this is not a problem for 
someone else, somewhere else. This is a problem that is 
completely preventable when all water safety stakeholders are 
doing their part and working together. Just look at this panel 
before the Subcommittee today. Each person here is an important 
link in the chain of water safety.
    It takes the pool and spa builders to demand that the 
state-of-the-art technologies are installed in pools, both 
public and private, to eliminate drain entrapment forever, and 
not actively lobby in states like Connecticut to roll back 
water safety laws.
    It takes organizations like the American Red Cross to 
continue their heroic efforts to train lifeguards and offer 
swim lessons, and the Boys and Girls Clubs of America to reach 
into underserved and minority communities where children are 
drowning at a rate three times of non-minority children.
    It takes homeowners' insurers to undertake a new effort 
demanding that residential pools are up to code before insuring 
the home. It takes organizations like the ZAC Foundation, 
Abbey's Hope, and Joshua Collingsworth Memorial Foundation, and 
many other family foundations to raise awareness. It takes 
parents to seek out information proactively and teachers to 
incorporate water safety messaging in their curriculum to keep 
children safe. And, yes, it takes Congress, the CPSC, CDC, and 
the states to continue to explore ways to improve laws for 
pools.
    Mr. Chairman, let me close by saying the Virginia Graeme 
Baker law was a tremendous start toward water safety, but I 
worry the public may believe the law covers all pools and spas, 
when the reality is it only covers public pools and spas, or 
roughly 2 percent of the pools and spas in this country. 
Meanwhile, 98 percent, more than 14 million pools and spas, are 
privately owned and regulated by state laws that range from 
strong to very weak.
    I urge this Committee to find ways to convene a discussion 
among states and all of the other stakeholders, including those 
of us at this table.
    Thank you again for the opportunity to appear before the 
Subcommittee today. Together, we can drive down the 
unacceptable drowning that is robbing families of their loved 
ones each and every day.
    [The prepared statement of Ms. Cohn follows:]

    Prepared Statement of Karen Cohn, Co-Founder, The ZAC Foundation
    Chairman Moran, Ranking Member Blumenthal, and Members of the 
Committee, it is an honor to appear before you, and a privilege to be 
here with my dear friend Nancy Baker, our wonderful partner Connie 
Harvey from the American Red Cross, and the rest of the distinguished 
panelists. And while I do not speak for the families who have suffered 
similar tragedies, my heart is with them as I appear before this 
Committee today.
    Mr. Chairman, it has been ten years. Ten years since this Committee 
led the charge, along with Nancy Baker, Katey and Scott Taylor, and 
others, to try to eliminate incidences of pool and spa drain entrapment 
in the Virginia Graeme Baker (VGB) bill, and ten very difficult years 
since I lost my son Zachary who tragically became entrapped in a drain 
in our backyard pool; and, despite grown adults trying to pull him from 
the drain, the suction simply was too much. Zachary was six, he had his 
entire life ahead of him and we miss him dearly.
    Like many parents, we thought we had done everything we could to 
protect our children around the water like enrolling them in swim 
lessons, setting the rules for behavior around the pool, and ensuring 
intense supervision. But we had no idea what danger lurked in our pool. 
We have spent the past decade making sure that parents have all of the 
information they need to keep their children safe, so that no family 
suffers the same tragic loss.
    Since his passing, Zachary's legacy has touched the lives of 
thousands through a foundation started by my husband Brian and I to 
honor Zachary, and to offer programming to teach children and families 
about water safety. It is called The ZAC Foundation. We have written a 
children's book called The Polar Bear Who Wouldn't, Couldn't Swim; and 
we have partnered with the American Red Cross, in support of their 
Centennial Campaign and with the Boys and Girls Clubs of America to 
stage what we call ``ZAC Camp'' designed to provide water safety 
instruction to underserved children in cities across America. And, to 
date, I am pleased to say that more than 10,000 children in 22 states 
have gone through ZAC Camps, and more than 80 million Americans have 
received our message through our media efforts.
    To most Americans, drowning is something that happens to somebody 
else, somewhere else. Something you hear about on the news or read 
about in the paper. But what most do not know is that drowning is the 
second leading cause of accidental death of children under 14, and 
number one cause of accidental death for children one to four years 
old.
    Mr. Chairman, we lose 10 Americans every single day to drowning. Of 
those 10, two are children. Black and Hispanic American children are 
three times more likely to drown than their Caucasian counterparts. 
Three times. We lose more than 3,800 Americans to drowning or boating--
related deaths each year. When you do the math, you quickly realize 
that since VGB was signed into law, more than 38,000 Americans have 
drowned--or enough to nearly fill Nationals Park. I'll say it again, 
38,000.
    Mr. Chairman, I can assure you this is not a problem for someone 
else, somewhere else. This is a problem that is completely preventable 
when all water safety stakeholders are doing their part and working 
together. Just look at this panel before the Subcommittee today. Each 
person here is an important link in the chain of water safety. In order 
to realize water safety:

  <bullet> It takes the pool and spa builders to demand that state--
        of--the--art technologies are installed in pools--both public 
        AND private--to eliminate drain entrapment forever, and not 
        actively lobby in states like Connecticut to roll back water 
        safety.

  <bullet> It takes state lawmakers to refuse to weaken water safety 
        standards and aggressively educate residential pool owners 
        about the dangers and responsibilities of owning a pool.

  <bullet> It takes operators of municipal pools to be adamant that 
        safety is the first priority.

  <bullet> It takes organizations like the American Red Cross to 
        continue their heroic efforts to train life guards and offer 
        swim lessons and the Boys and Girls Clubs of America to reach 
        in to under--served and minority communities. Communities who 
        have children who as I mentioned drown at a rate three times 
        higher than non--minority children.

  <bullet> It takes the homeowners' insurers to undertake a new effort 
        demanding that residential pools are up to code before insuring 
        the home.

  <bullet> It takes organizations like The ZAC Foundation and other 
        family foundations, and courageous leaders like Nancy Baker; 
        Katey and Scott Taylor; and Kathy and Blake Collingsworth, to 
        name only a few, to raise awareness.

  <bullet> It takes parents to seek out information proactively and 
        teachers to incorporate water safety messaging in their 
        curriculum to keep children safe.

  <bullet> And, yes, it takes Congress, the Consumer Product Safety 
        Commission (CPSC), and the U.S. Centers for Disease Control and 
        Prevention (CDC) to continue to explore ways to improve Federal 
        law for public pools.

    Mr. Chairman, the Virginia Graeme Baker law was a good start toward 
water safety, but my worry is that the public may be relying on the law 
to cover all pools when the reality is it only covers public pools--or 
roughly three percent of the pools in this country. Meanwhile 97 
percent--more than 10 million--of pools are privately owned and 
regulated by state laws that range from strong to very weak. I urge 
this Committee to bridge the jurisdictional divide and use your pulpit 
to find ways to convene a discussion among states and all of the other 
stakeholders, including those of us at this table.
    Together we can eliminate all pool and spa drain entrapments in the 
United States and drive down the unacceptable number of unintentional 
drowning that is robbing families of their loved ones each and every 
day.
    Thank you again Mr. Chairman for the opportunity to come here 
before the Committee today. I look forward to our discussion.

    The Chairman. Ms. Cohn, thank you very much for your 
testimony. And on behalf of my colleagues here on the 
Committee, we express our condolences and sympathies to your 
family. And I appreciate again the efforts you're making to 
make certain that this tragedy occurs no more.
    Ms. Cohn. Thank you so much.
    The Chairman. You're very welcome.
    Mr. Gottwald.

 STATEMENT OF RICHARD GOTTWALD, PRESIDENT AND CHIEF EXECUTIVE 
      OFFICER, THE ASSOCIATION OF POOL & SPA PROFESSIONALS

    Mr. Gottwald. Thank you, Chairman Moran, Ranking Member 
Blumenthal, and members of the Subcommittee for holding this 
important hearing. It is an honor and a privilege for me to be 
here today to mark the 10th anniversary of the Virginia Graeme 
Baker Pool and Spa Safety Act.
    I do want to acknowledge Mrs. Baker and Mrs. Cohn and the 
other families that are here today for the horrible tragedies 
that they've endured, and I can say on behalf of the industry, 
we want to make sure that those tragedies never happen again.
    My name is Rich Gottwald. I'm President and CEO of the 
Association of Pool & Spa Professionals (APSP). APSP is the 
world's oldest and largest trade association representing the 
entire pool and spa supply chain. I appreciate the opportunity 
today to share with you how the Virginia Graeme Baker Pool and 
Spa Safety Act, or the VGB, has influenced the pool and spa 
industry, and how 10 years later we continue to educate and 
train our members on how to keep all pools and spas safe, 
including the public pools covered by the VGB Act, as well as 
the residential pools that are not covered by the Act.
    I have submitted testimony, but I want to really focus on 
just three key issues.
    Number one, since 1985, APSP has been accredited by the 
American National Standards Institute to develop and promote 
the country's national consensus standards for pools, hot tubs, 
and spas. Compliance with our standard for suction fittings, 
also known as the Drain Cover Standard, is a requirement to the 
VGB. This standard was developed and continues to improve with 
the input of the CPSC staff and serves as an excellent example 
of collaboration between industry and government to protect all 
pool and spa users. A 2017 successor standard is slated to be 
adopted by this December.
    In 2006, while the VGB was being finalized, APSP published 
the Standard for Suction Entrapment Avoidance, the first 
comprehensive systems approach to engineering swimming pools 
and spas to eliminate suction entrapment events. It protects 
against the three root causes of entrapments: suction, water 
velocity, and mechanical binding.
    Number two, through our relationship with the International 
Code Council, our national consensus standards that I just 
mentioned are incorporated into the International Swimming Pool 
and Spa Code. This is a comprehensive national code that was 
developed jointly by APSP and the ICC, and the first edition 
was published in March 2012. The third edition is slated to be 
published later this year. The Code has been adopted by 22 
states and 73 local jurisdictions. There is still a long way to 
go for full adoption. When adopted, the Code will provide the 
same level of safety protection for newly installed residential 
pools and spas that the VGB now mandates for public pools and 
spas. We have to get this into residential pools.
    Further, this pool and spa code also requires barriers, 
such as fencing and covers, for all residential pools. We 
continue to urge every state to adopt this code to protect all 
swimmers in both the public and residential pools and spas.
    Number three, APSP continues our efforts to communicate 
water safety messaging and information to our members, our 
partners, and pool owners. APSP has created the ``Check a 
Drain'' initiative that reminds our members throughout the year 
to check their customers' drains to make sure both public and 
residential pools and spas are in compliance with the VGB.
    APSP actively urges builders and service professionals to 
contact the millions of existing pool owners to replace pre-VGB 
drain covers, that cover that you saw over there.
    APSP work with the American Red Cross, the National 
Recreation and Park Association, and the World Waterpark 
Association to launch the National Water Safety Month campaign, 
which is held every May. This month marks its 10th year 
anniversary. National Water Safety Month has gained attention 
from Governors in all 50 states who have signed proclamations 
to recognize it.
    In conclusion, APSP is committed to safety and fully 
supports the Virginia Graeme Baker Pool and Spa Safety Act. We 
hope the Subcommittee members will recognize and support 
statewide adoption of the International Swimming Pool and Spa 
Code so as to protect our residential pool and spa users as we 
do our public pool and spa users.
    Thank you for this opportunity to testify.
    [The prepared statement of Mr. Gottwald follows:]

 Prepared Statement of Richard Gottwald, President and Chief Executive 
          Officer, The Association of Pool & Spa Professionals
    Thank you, Chairman Moran, Ranking Member Blumenthal, and Members 
of the Subcommittee for holding this important hearing. It is an honor 
and a privilege for me to be here before you to mark the 10th 
anniversary of the Virginia Graeme Baker Pool and Spa Safety Act.
    My name is Richard Gottwald and I am the President and CEO of The 
Association of Pool & Spa Professionals. APSP is the world's oldest and 
largest trade association representing the entire pool and spa supply 
chain: From pool, hot tub and spa manufacturers, to distributors, 
suppliers, and retailers, as well as the building and service 
professionals. We develop and promote the country's national consensus 
standards for pools, hot tubs, and spas, and are the only pool and spa 
industry organization accredited by the American National Standards 
Institute since 1985 to do so. ANSI is a 100-year-old organization that 
serves as an administrator and coordinator of U.S. industry standards.
    I appreciate the opportunity today to share with you how the 
Virginia Graeme Baker Pool and Spa Safety Act, or ``VGB,'' has 
influenced the pool and spa industry, and how, 10 years later, we 
continue to educate and train our association and members on how to 
keep all pools and spas safe, including the public pools covered by the 
VGB Act, as well as the residential pools that were not covered by the 
law.
History: A Seismic Shift
    To say that the Virginia Graeme Baker Pool and Spa Safety Act was a 
seismic event in our industry is an understatement. In fact, VGB 
created a tsunami of safety awareness and education efforts by APSP and 
many others that reverberates today. Working with the family of 
Virginia Graeme Baker and Safe Kids Worldwide, Congresswoman Debbie 
Wasserman Schultz first introduced the legislation in 2006. The 
industry immediately stated its support for mandating safety 
requirements in all pools and spas, and actively worked with all 
parties involved in this critical bill, leading to the second iteration 
of the bill that was signed into law on December 19, 2007.
    As I mentioned earlier, APSP is the only industry organization 
accredited by ANSI to develop and promote the country's national 
consensus standards for pools, hot tubs, and spas. Compliance with our 
ANSI/APSP-16 Standard for Suction Fittings for Use in Swimming Pools, 
Wading Pools, Spas, and Hot Tubs is a requirement of the VGB. This 
standard was developed and continues to improve with input from the 
Consumer Product Safety Commission (CPSC) staff and serves as an 
excellent example of collaboration between industry and government to 
protect all pool and spa users. A 2017 successor standard is slated to 
be adopted by this December.
    In 2006, while the VGB was being finalized, APSP published the 
ANSI/APSP-7 Standard for Suction Entrapment Avoidance in Swimming 
Pools, Wading Pools, Spas, Hot Tubs, and Catch Basins. This standard is 
consistent with all of the provisions in the VGB and was the first 
comprehensive systems approach to engineering swimming pools and spas 
to eliminate suction entrapment events. It protects against the three 
root causes of entrapments: suction, water velocity, and mechanical 
binding. Based on sound science and best practices, this standard is 
consistent with and even exceeds the requirements in the Virginia 
Graeme Baker Pool and Spa Safety Act, current U.S. Consumer Product 
Safety Commission interpretations of the VGB, and model state 
legislation provided within the VGB Act.
    In 2009, the ANSI/APSP-7 standard was recognized by the 
International Code Council (ICC) in their International Building and 
Residential Codes (IBC and IRC) and in 2012 was referenced in the 
International Swimming Pool and Spa Code (ISPSC). The ISPSC is the 
first ever all-inclusive comprehensive national code for swimming pools 
and spas developed in compliance with the principles defined by the OMB 
Circular A119, Federal Participation in the Development and Use of 
Voluntary Consensus Standards and in Conformity Assessment Activities, 
codified by Public Law 104-113, National Technology Transfer and 
Advancement Act of 1995. This key ANSI/APSP safety standard provides 
the ISPSC with the necessary model suction entrapment avoidance code 
language for national, state, and local adoption. The ANSI/APSP-7 
standard has been adopted, either directly, or through the ICC Codes, 
in over 20 states, with numerous local adoptions where statewide 
adoption is not required.
    The ISPSC also requires barriers for all residential pools, 
consistent with the VGB model state legislation language. We continue 
to urge all states to adopt this code to protect all swimmers in both 
public and residential pools and spas. The CPSC stated that the ISPSC 
meets all of the requirements of the model state legislation and VGB 
State Grant Program.
Safety Awareness
    The final passage of the Virginia Graeme Baker Pool & Spa Safety 
Act also assisted us in our efforts to communicate water safety 
messaging and information to our members, affiliate organizations and 
pool owners. Beyond the very important technical requirements that the 
VGB and the International Swimming Pool and Spa Code require, APSP 
sought a larger platform that would aim to promote safe water practices 
and prevent drowning and water-related injuries. Working 
collaboratively with the American Red Cross, the National Recreation 
and Park Association, and the World Waterpark Association, we launched 
the National Water Safety Month campaign, which is held every May. This 
month marks its 10th year anniversary. National Water Safety Month has 
gained attention from governors of all 50 states, who have signed water 
safety proclamations, and Olympic swimmers, who have highlighted the 
vital importance of public education regarding safer practices for kids 
and adults in and around the water. Throughout the month of May, 
thousands of aquatic facilities and professionals recognize this 
important month through educational programs, public service 
announcements, governmental proclamations, and distribution of water 
safety materials, including CPSC's Pool Safely program materials. We 
remain committed to working with the Pool Safely Program, and 
organizations like the National Drowning Prevention Alliance (NDPA), 
recognizing and appreciating their outreach to swimmers, especially in 
minority communities.
    In addition, APSP created the ``Check A Drain'' initiative that 
reminds our members throughout the year, especially at key swim times, 
to check their customers' drains to make sure both commercial and 
residential pools are in compliance with VGB. Since the adoption of the 
VGB, the APSP has actively urged and taught builders and service 
professionals to contact the millions of existing pool owners to 
replace pre-VGB drain covers.
Going Beyond Public Pools & Fighting for Adoption of ISPSC
    Through our relationship with the International Code Council (ICC), 
our ANSI/APSP national consensus standards are incorporated into the 
International Swimming Pool and Spa Code (ISPSC). This first-ever 
comprehensive national pool and spa code was developed jointly by the 
APSP and ICC, with the first edition being published in March 2012. The 
third edition of this code is slated to be published this September. To 
date, this code has been or is in the process of being adopted by 22 
states, 11 of which are mandatory adoptions (Louisiana, New Hampshire 
and Massachusetts are those states in the process of adopting before 
the end of the year). In addition, there are 73 local jurisdictions 
across the country that have adopted the ISPSC. When adopted, the 
International Swimming Pool and Spa Code will provide the same level of 
safety protection for newly installed residential pools and spas that 
the VGB now mandates for public pools and spas.
    It is important to note that the ISPSC not only addresses suction 
entrapment prevention in pools and spas, but also provides barrier 
protection requirements in order to reduce the risk of unattended 
access to the pool or spa; understanding that the primary layer of 
protection is constant adult supervision of toddlers. Providing these 
pool safety requirements to prevent drownings is of utmost importance 
and we continue to encourage each and every state to adopt this code.
Conclusion
    In conclusion, on behalf of APSP and its many members, we 
appreciate what this subcommittee is doing to support water safety and 
recognize the efforts of industry, the many safety organizations and 
advocates who have played a significant role in reducing these tragic 
incidents since the inception of the Virginia Graeme Baker Pool and Spa 
Safety Act, understanding there is more work to be done.
    We hope the Subcommittee members will recognize and support 
statewide adoption of the International Swimming Pool and Spa Code 
(ISPSC) to now protect our residential pool and spa users thus finally 
protecting all our nations' swimmers. Thank you for the opportunity to 
testify. I would be pleased to answer your questions.

    The Chairman. Mr. Gottwald, thank you very much.
    To my colleagues, the vote was called at 3:01. There are 
about 5 minutes left, but we're notifying the cloakroom we will 
be there shortly, and I call on Ms. Harvey.

   STATEMENT OF CONNIE HARVEY, DIRECTOR, AQUATICS CENTENNIAL 
                INITIATIVES, AMERICAN RED CROSS

    Ms. Harvey. Thank you very much. Good afternoon, Chairman 
Moran, Ranking Member Blumenthal, and distinguished members of 
the Subcommittee. My name is Connie Harvey, and I am the 
Director of the Aquatics Centennial Initiatives for the 
American Red Cross. It's an honor to be here to talk with you 
about the important issue of keeping children and families safe 
in and around the water.
    Water provides opportunities for fun, fitness, sport, 
competition, rehabilitation, employment, but it also carries 
significant risks, risks that can be tragic. The work of your 
Committee to provide safer products, including pools and spas 
equipment and toys, aligns directly with the work of the 
American Red Cross to prevent, prepare for, and respond to 
emergencies and to help enjoy the water safely.
    As you've heard this afternoon, drowning is a leading cause 
of death in the United States, especially for children. 
Drowning prevention requires a multipronged approach that 
includes prevention of unauthorized access to water, 
elimination of hazards, such as dangerous drains, and arming 
children and adults with knowledge and skills to help them be 
safe in and around water.
    The Red Cross has a network of 13,000 aquatic providers 
across the Nation who teach more than 2.5 million people each 
year to swim and about water safety, and who train 325,000 
lifeguards each year. But even with these impressive numbers, 
there are large segments of our population who are not learning 
to swim or who do not know critical water safety strategies 
that could save their lives.
    In 1914, the American Red Cross added drowning prevention 
to its mission. To mark this milestone, in 2014, we launched 
our Aquatics Centennial campaign. We selected 50 communities 
where the drowning rates or the numbers of drownings are high. 
Through our training partners, we are providing access to 
lifesaving knowledge and skills to parts of their communities 
that were not getting this training. Our goal is twofold: teach 
an additional 50,000 children and adults to swim and about 
water safety, and train 1,000 more lifeguards and water safety 
instructors.
    Parents and caregivers are critical to our campaign. We 
teach them the circle of drowning prevention, that is, the 
layers of protection that help prevent drowning from happening 
in the first place. And we teach about the chain of drowning 
survival, which are the skills and knowledge required to help 
in an emergency.
    We seek aquatic facilities in underserved neighborhoods 
with convenient access to water. The Centennial campaign is a 
multiyear commitment, which allows us to help get swimmers to 
water competency and to develop lifeguards and swim instructors 
from within these communities. Not only does this provide job 
opportunities, but it also helps develop role models for 
participation in and excitement for the water.
    So as we head into our fourth year of the Centennial 
campaign, we have helped initiate or expand programs that are 
affordable to families with the greatest need. So far, around 
45,000 sets of swim lessons have been delivered, 900 lifeguards 
and water safety instructors have been certified, 800 youth 
have completed junior lifeguarding, and 3,000 parents and 
caregivers have participated in water safety training.
    Today, we recognize the 10th anniversary of the Virginia 
Graeme Baker Act. The VGBA is making pools and spas across this 
Nation physically safer. The resulting CPSC's Pool Safely 
campaign is providing vital resources to aquatic facilities and 
the communities they serve with action steps that are very 
empowering and lifesaving.
    The Red Cross has been an active partner of the Pool Safely 
campaign from the very beginning. We believe in the Pool Safely 
motto, ``Simple Steps Save Lives.'' You don't know which it is 
until it does. This embodies the spirit of the need for 
partnerships. You do not know which organizations' messages or 
programs will resonate and convince someone to take actions 
like put a fence around their pool, enroll in swim lessons, and 
replace their drain covers with one that is VGBA-compliant. Of 
course, to make a real impact in reducing drowning, there must 
be strong coalitions of national organizations, such as Water 
Safety USA, which is made up of agencies who share a common 
mission of drowning prevention. Together, we amplify one 
another's work.
    High profile activities raise awareness. With our diversity 
and aquatics partners, on May 15, International Water Safety 
Day, collectively we reached more than 1 million people around 
the globe with water safety messages. The World's Largest 
Swimming Lesson on June 22 will highlight the fact in a very 
big way that swim lessons save lives.
    We are honored and humbled to work with families who have 
faced the tragedy of drowning and drain entrapment, such as the 
ZAC Foundation, the Baker family, Stew Leonard III Children's 
Charities, and Drennen's Dreams. They share their tragic 
stories, and from their heartbreak, we work together to prevent 
them from ever happening again. But it will take us all working 
together to do so. Thank you for your role in this fight.
    Again, thank you for giving the American Red Cross the 
opportunity to share information about our aquatics programs. 
We are proud of our work and know that we are making an impact 
to impact drowning.
    [The prepared statement of Ms. Harvey follows:]

  Prepared Statement of Connie Harvey, Director, Aquatics Centennial 
                    Initiatives, American Red Cross
    Chairman Moran, Ranking Member Blumenthal, and distinguished 
Members of the Subcommittee, it is an honor to testify before you on 
behalf of the American Red Cross. We applaud your efforts today to 
bring attention to the important issue of keeping children and families 
safe around the water. I am the Director of the Red Cross Aquatics 
Centennial Initiatives and serve as a longtime advocate and 
spokesperson for pool and water safety.
    The work of the Red Cross impacts lives every day--down the street, 
across the country and around the world. We help those affected by 
disasters; provide services to our military, veterans and their 
families; collect blood and blood products for patients; teach life 
saving courses and, internationally, partner with organizations to 
assist those in need.
    We are able to achieve our mission through the power of volunteers 
and the generosity of the American public. Each day, through the Red 
Cross, thousands of people provide compassionate care to those in need. 
And, we do this every day because the Red Cross is needed every day.
    Today, I am focusing on our preparedness and health and safety 
programs. About 16,000 times a day, a person receives life saving Red 
Cross health and safety training, which includes cardiopulmonary 
resuscitation (CPR) certification, automated external defibrillator 
(AED) training, babysitting courses and, of course, learning to swim. 
Throughout the nation, the Red Cross is working with essential partners 
in serving communities by teaching children and adults to swim and how 
to be safe in and around water.
    Whether people live inland or by the water, they seek water for 
many reasons--recreation, fitness, sport--to name a few. We strongly 
believe that water safety knowledge and swimming are life skills that 
everyone should know.
American Red Cross Aquatics History
    In 1914, the Red Cross teamed up with established lifesaver 
Commodore Wilbert Longfellow to form the National American Red Cross 
Life Saving Corps. Longfellow realized the rising death toll from 
drowning could become a national tragedy unless new safety standards 
were introduced. While building the Red Cross Life Saving Corps, the 
Commodore took on the additional challenge of providing sound, large-
scale instruction in swimming.
    And, for the next 33 years, Longfellow and the Red Cross along with 
other partners, such as the Boy Scouts and the YMCA, worked together in 
advancing the life saving and water safety program.
    This work speaks for itself--not only did we see the Nation's 
drowning rate cut in half, we also witnessed a surge in the popularity 
of swimming, boating and other water activities. At the time of 
Longfellow's death in 1947, we estimate about 80 million Americans were 
participating in some form of aquatics recreation.
    Today, Longfellow's legacy lives on. 103 years later, the American 
Red Cross Lifeguarding and Swimming and Water Safety programs are still 
helping keep Americans safer around the water. Each year more than 2.5 
million people learn to swim from Red Cross Water Safety Instructors, 
and more than 325,000 lifeguards are trained to help protect America's 
pools, water parks and non-surf waterfronts.
    While the hallmarks of the early Red Cross Lifesaving and Water 
Safety program can clearly be seen today, the Red Cross continues to 
evolve with the times and provide the highest quality educational 
methods, including embracing technology with simulation learning and 
our mobile applications, such as our Red Cross Swim App, designed to 
teach parents and children about water safety and track their progress 
through learning to swim.
    Through the work and guidance of the American Red Cross Scientific 
Advisory Council, Red Cross aquatics programs of today are based on the 
latest available science related to life saving, resuscitation and 
first aid as well as teaching methods and instructional design.
    Our Aquatics sub-council of the Scientific Advisory Council has 
developed the Circle of Drowning Prevention, Chain of Drowning Survival 
and a definition of water competency as a means to educate the general 
public about the knowledge and skills that everyone should know to help 
keep them safer in and around water.
Drowning in the United States: Startling Statistics & the American Red 
        Cross Response
    Even with our ongoing effort to motivate all Americans to learn to 
swim, over the last decade, the national drowning rate averages more 
than 3,500 deaths per year.
    Consider these alarming facts presented in 2016 by the Centers for 
Disease Control and Prevention (CDC):

  <bullet> An average of ten people each day die from unintentional 
        drowning.

  <bullet> Drowning is responsible for more deaths among children ages 
        one to four than any other cause except birth defects.

  <bullet> Among our children between one and 14 years of age, drowning 
        is the second leading cause of unintentional injury-related 
        death, only behind motor vehicle crashes.

  <bullet> For every child who dies from drowning, another five receive 
        emergency care for nonfatal submersion injuries.

    Even more concerning is that drownings do not affect everyone 
equally. Children, males, minorities (particularly African-American and 
Hispanic populations) and those in rural areas are at a greater risk 
for drowning.
    The Red Cross believes these numbers are unacceptable, especially 
knowing that drowning is preventable.
    A 2014 survey, conducted for the Red Cross, found that while 80 
percent of Americans said they could swim, only 56 percent of the self-
described swimmers can perform all five of the basic skills that could 
save their life in the water.
    These critical water safety skills, also known as ``water 
competency,'' are the ability to:

  1.  Step or jump into water over your head;

  2.  Return to the surface and float or tread water for one minute;

  3.  Turn around in a full circle and find an exit;

  4.  Swim 25 yards to the exit; and

  5.  Exit from the water. If in a pool, be able to exit without using 
        the ladder.

    The survey also found that nearly half of Americans (46 percent) 
report that they have had an experience in the water where they were 
afraid they might drown. In addition, one in five (19 percent) said 
they knew someone who had drowned, and 20 percent knew someone who 
experienced a non-fatal drowning.
    In 2014, the World Health Organization released the Global Report 
on Drowning, affirming the Red Cross belief that a proven strategy to 
prevent drowning is to improve swimming and water safety skills.
    This may sound simple, but, actually, our response is not an easy 
task and the Red Cross must engage in a multi-pronged endeavor in order 
address these statistics. Our continuous outreach includes increasing 
access to swim lessons, motivating everyone (youth and adults) to 
overcome barriers and learn about water safety, and creating a 
sustainable ecosystem of water safety that engages the next generation.
    Unsatisfied with the occurrence of any preventable drowning and 
deaths, the Red Cross is continuing our legacy of helping to save lives 
in, on and around the water.
American Red Cross Aquatics Centennial Campaign
    In 2014, to mark our 100 year anniversary since the Red Cross added 
drowning prevention to its mission, we launched our Aquatics Centennial 
Campaign. We set a goal of helping 50,000 more people in 50 communities 
learn to swim and learn about water safety to help reduce the drowning 
rate in these communities.
    Additionally, we set out to develop 1,000 more lifeguards and water 
safety instructors, train parents and caregivers in pediatric CPR/AED 
and offer water safety education for families.
    We selected 50 communities where the drowning rate is higher than 
the national average (1.13 per 100,000) or where a high number of 
drownings occur.
    Our effort is two-fold: providing basic swimming and safety skills 
to be water competent and delivering knowledge on how to prevent, 
recognize and respond to aquatic emergencies to families who likely 
would not otherwise have the opportunity to participate in this 
training.
    However, creating a culture of water safety is a challenge, 
especially in communities with little or no resources dedicated to such 
an effort. Therefore, the Centennial Campaign focuses on 6 goals. It is 
through these key prevention strategies that we are able to reach more 
individuals and families with our message.
1. Teaching Learn to Swim Classes
    In partnership with local Red Cross Licensed Training Provider 
facilities, our courses teach people the abilities to swim, think and 
act safely around the water. These courses center on water survival, 
safety and swimming skills, with a strong emphasis on drowning 
prevention and water safety.
    While we most often serve children, we encourage adults to 
participate in these classes as well. We believe that water safety is a 
family activity and experience. For example, if a mom becomes more 
comfortable in the water, she may be more confident in enrolling her 
child in a swim class. Or, if an older teen gains the fundamentals of 
swimming, she now has the skills and confidence to enter a Lifeguarding 
or Water Safety Instructor course.
2. Offering Water Safety Education
    In addition to learning to swim, children need to be taught how to 
make safe decisions around the water. Red Cross Longfellow's WHALE 
Tales (an acronym for Water Habits Are Learned Early), which was first 
introduced in 1988, is a water safety education program that teaches 
children potentially life saving decision-making skills. The program 
includes lessons on the importance of swimming only in designated 
swimming areas that are supervised by lifeguards, how to look out for 
dangerous conditions, to swim with a buddy and help a person in trouble 
in the water by reaching or throwing an object.
    The best thing about our WHALE Tales program is that it can be 
delivered on dry land, beyond the swim lesson setting, and brought into 
the community through day cares, camps and schools.
3. Enrolling Parents/Caregivers in Pediatric CPR/AED Training
    For every family with a child enrolled at a participating facility, 
parents and caregivers have the opportunity to attend a Red Cross 
Pediatric CPR/AED course at no charge.
    In the time it may take for emergency help to arrive, a bystander's 
CPR skills could save someone's life. Bystander training is the 
cornerstone of our Red Cross preparedness mission. The earlier CPR is 
started and an AED is on the scene, the better chance of improved 
outcome for the victim.
4. Training Lifeguards
    Every community needs a pipeline of experienced and certified 
lifeguards to provide reliable protection for water recreation 
activities.
    According to the CDC, lifeguards rescue more than 100,000 persons 
from drowning each year. Actually, the most frequent actions of 
lifeguards are to prevent drowning from ever happening, such as warning 
individuals away from dangerous areas and suggesting that poor swimmers 
stay in shallow water. Without a doubt, trained, professional 
lifeguards have significantly reduced drowning deaths in the United 
States.
5. Training Water Safety Instructors
    Water Safety Instructors are instrumental in creating and 
sustaining a water safety culture. They are part of our ``train the 
trainer'' outreach effort. We are helping develop much needed swim 
instructors who will help advance our message well beyond the 
Centennial Campaign.
6. Raising Awareness
    Ultimately, specifically through the Centennial Campaign and, more 
broadly through the Red Cross aquatics mission, this program attempts 
to change the behavior of parents and caregivers by empowering them to 
be actively involved in drowning prevention. All are encouraged to 
apply their new skills and knowledge every time they are near the water 
in order to prevent drownings and to save lives.
    As we head into our fourth year of the Centennial Campaign, we are 
working with 51 partners in 87 communities in 200 aquatic facilities 
across 17 states. We are serving vulnerable areas within these 
communities, such as those served by rental assistance or with special 
designations for additional services like ``neighborhood strategy 
area'' or ``transforming neighborhoods initiatives.'' Already, more 
than 45,000 sets of swim lessons have been delivered to help children 
and adults gain the life skill of swimming.
    The Centennial Campaign has trained nearly 900 lifeguards and Water 
Safety and Basic Swim Instructors in these same communities. And, we 
are developing future lifeguards through more than 800 youth who have 
completed Junior Lifeguarding.
    More than 3,000 parents and caregivers have participated in 
training to help them make good choices for their families around the 
water and to know what to do to respond in a water emergency until help 
arrives.
    These partnerships are providing accessible, affordable, high 
quality swim lessons, by starting up or expanding swim lessons and 
reaching those in at-risk and underserved communities. Without this 
program, these individuals and families would not have the tools and 
resources necessary to help build a swimming and water safety culture.
    While we are well on our way to achieving our service delivery 
goals, there is so much more work to be done to drive down the drowning 
rate in our country. It takes partnerships, like those we have with our 
training providers of parks and recreation departments, youth-service 
organizations, and many, many others.
Virginia Graeme Baker Act: 10th Anniversary
    Today, we are recognizing the 10th anniversary of the Virginia 
Graeme Baker Act (VGBA) and its impact on pool and spa safety. The 
requirements set forth in the VGBA are making the pools and spas across 
this Nation ``physically'' safer. And while this first-of-its-kind 
Federal law regulates public facilities, the effects are also very 
evident in residential pools and spas with much safer equipment in the 
marketplace and a heightened awareness of the dangers of drains.
    In addition to the requirements that help prevent injuries due to 
suction entrapment eviscerations from drains and other fittings in 
pools and spas, the Act mandated a public information campaign with a 
goal to prevent drowning and entrapment incidents in pools and spas 
nationwide. The result is the CPSC's Pool Safely Campaign.
    The Red Cross has been an active partner of the CPSC and the Pool 
Safely Campaign from the very beginning. Pool Safely is providing vital 
resources to aquatic facilities across the Nation that help raise 
awareness of the risks associated with the water and the dangers of 
drain entrapment at a very grass roots level. But the messages are also 
very empowering, providing critical water safety information--and 
action steps--that saves lives.
    We at the Red Cross believe in the Pool Safely motto: Simple Steps 
Save Lives. It is true that you do not know which step it is, until it 
does. This motto embodies the spirit of the need for partnerships among 
our organizations. You do not know which organization's message or 
programs will resonate with someone and convince them to take actions 
like put a fence around their pool, enroll in swim lessons, learn CPR 
or replace their drain cover with one that is VGBA compliant--but it 
may only take one to save a life.
The Need for Continued Collaboration
    To make a real impact in reducing drowning, there must be strong 
coalitions of national organizations, such as Water Safety USA, a 
coalition of non-profits and governmental agencies that share a common 
mission of drowning prevention. Together, we are able to amplify one 
another's work and help raise awareness of the need for swimming 
lessons for all and the importance of knowing basic water safety 
concepts and how to respond when things go wrong.
    I am proud of the Aquatics industry that is coming together for our 
common mission to stop drowning with high profile awareness activities. 
Earlier this month, with our Diversity in Aquatics partners, on 
International Water Safety Day held on May 15, collectively we reached 
1 million people around the globe with water safety messages. We look 
forward to the World's Largest Swimming Lesson on June 22, which is a 
day to highlight that swim lessons save lives.
    We are honored and humbled to work with families who have faced the 
tragedy of drowning and drain entrapment, such as The ZAC Foundation, 
Stew Leonard III Children's Charities and Drennen's Dreams. They share 
their tragic stories--and from their heartbreak, we are working 
together to prevent them from happening again.
    But, it will take us all working together to do so.
Conclusion
    There is little doubt that the need to train children and adults 
water safety and swimming skills is not only essential, it is life 
saving. Through our ongoing efforts, with particular focus on our 
Aquatics Centennial Campaign, the Red Cross can help provide access in 
communities with the greatest need to develop the skills and behaviors 
to make families and communities safer, to be responsible around the 
water and to know how to help and protect each other and their future 
generations.
    Again, thank you for giving the American Red Cross an opportunity 
to provide information about our ongoing aquatics programs and 
highlight our Centennial Campaign initiatives. We are proud of our work 
as we continue to advance water safety training efforts to help reduce 
drowning and deaths in communities across the Nation.
    I am happy to address any questions you may have.

    The Chairman. Ms. Harvey, thank you very much for your 
testimony. Thank you for the Red Cross's efforts.
    I'm going to recess this hearing for approximately 15 
minutes, so I'll recess it until the sound of the gavel of the 
Chair, so that we can go cast two votes. We'll be back. I'll 
give the Ranking Member the opportunity to offer an opening 
statement, and then we'll turn to questions. So we stand in 
recess till the sound of the gavel.
    [Recess.]
    The Chairman. Thank you all very much for your patience. I 
will call the hearing back to order. And I think what we'll do 
is give Senator Blumenthal and I an opportunity to make a few 
comments, and then open it to questions by the Committee 
members.
    I would explain that the reason I thought it was useful to 
have your testimony go before anything else is that it gave you 
the opportunity to have the largest number of Senators in the 
room and listening, and what you have to say is much more 
significant and important than what--I don't know about Senator 
Blumenthal, but what I might say.
    But I do think because part of the purpose of this hearing 
is to make certain that we raise public awareness, I want to 
make certain that at least some of these things that are being 
talked about are understood. And so I would again tell you that 
it's an honor to have all of you here and to have this hearing. 
And I appreciate the working relationship that Senator 
Blumenthal and I have in bringing this hearing to fruition. 
This is the second hearing of our subcommittee this year, and 
as I say, in part, it's designed to raise awareness of issues 
that are important to protecting Americans and their family 
members, to protect consumers. It's part of this Subcommittee's 
jurisdiction and our assignment.
    We're specifically examining the issue of pool and spa 
safety. It has been several years since Congress last held a 
hearing on this issue. This year does mark, as we've heard from 
the testimony, the 10th anniversary of the Virginia Graeme 
Baker Pool and Spa Safety Act. It was signed into law on 
December 19, 2007, by President George W. Bush. The 
legislation, as we've heard, is known as VGB, and it's aimed to 
enhance the safety of public and private pools and spas, reduce 
child drownings, and educate the public on the need for 
constant supervision of children in and around water. The 
hearing is designed to examine the extent to which the VGB has 
accomplished those goals over the past decade since its 
enactment.
    While I wish we were here under different circumstances, as 
I've indicated previously, we honor the parents who are here to 
help make certain that what happened in their family's life 
happens in no other family's life. There is also an additional 
individual that's with us today, that's Scott Taylor. And his 
daughter, Abbey Taylor, was also a victim of suction 
entrapment, and her death inspired Abbey's Hope Foundation in 
her name to educate the public about pool and spa safety and to 
keep kids safe.
    As was indicated, this month of May is National Drowning 
Prevention Month, and to that end, I'm pleased to join the 
Ranking Member, Senator Blumenthal, and Commerce Committee 
Chairman Thune, and I think Senator Nelson in introducing today 
a resolution supporting the states and including my own state 
of Kansas that have signed proclamations declaring May as 
National Water Safety Month. We wish to recognize and express 
support for those goals and for ideals of that designation.
    And this upcoming Memorial Day, just a few days away now, 
this weekend traditionally marks the beginning of summer 
swimming season. For American families, recreational swimming 
is a time-honored tradition. Swimming pools, such as the Big 
Pool in Garden City, Kansas, it's the largest outdoor municipal 
concrete swimming pool in the world, are fixtures of our local 
communities.
    I smiled with Ms. Harvey's testimony, one of the meanest 
persons, at least I thought as a 5- or 6-year-old, was my Red 
Cross swimming instructor, who continually forced me to get 
into freezing water well before there were ever heated pools in 
my community's life. They are a mainstay of American life, and 
we want that mainstay to be as safe and secure as possible.
    Parents and adults work to monitor children around pools 
and spas and take precautions such as stopping them from 
running on wet surfaces. Many don't realize the potential 
dangers that are posed by pool drains. Even when we have 
attentive parents and adults around, accidents unfortunately 
still happen.
    Drownings continue to be ranked second or third among the 
leading causes of death for children, depending on the state, 
especially for children ages 1 to 4 years old. In Kansas, there 
have been 297 drownings in the past decade. What makes these 
tragedies all the more painful for families is that the 
accidents are, in many instances, preventable.
    I appreciate the willingness that our witnesses have shown 
in discussing these sensitive topics, and I appreciate the 
perspectives that they bring. And I know that they took time to 
prepare and to come here to present their heartfelt testimony.
    It's my hope that a Senate hearing calling attention to 
pool safety leading into this summer season will have a 
positive impact on reducing pool- and spa-related injuries and 
deaths. And again I thank my colleague, Senator Blumenthal, for 
his efforts in bringing this issue forward in the past and 
today. And if greater awareness can prevent one child's death, 
then this committee hearing has served a useful purpose.
    So again thank you, witnesses, for joining us. I apologize 
for the time circumstances we found ourselves in.
    [The prepared statement of Senator Moran follows:]

    Prepared Statement of Hon. Jerry Moran, U.S. Senator from Kansas
    Good afternoon, everyone. I call to order this hearing of the 
Senate Subcommittee on Consumer Protection, Product Safety, Insurance 
and Data Security. Today is the second gathering of the Subcommittee 
this year, and again our purpose is to raise awareness of issues 
important for the protection and betterment of American consumers.
    I have convened today's hearing to specifically examine the issue 
of pool and spa safety. It has been several years since Congress last 
held a hearing on this issue. This year marks the tenth anniversary of 
the Virginia Graeme Baker Pool and Spa Safety Act, which was signed 
into law by President George W. Bush on December 19, 2007.
    This legislation, known as VGB, aimed to enhance the safety of 
public and private pools and spas, reduce child drownings, and educate 
the public on the need for constant supervision of children in and 
around water. This hearing will examine the extent to which VGB has 
accomplished these goals over the past decade since enactment.
    I understand former Senator George Allen of Virginia is in the 
audience today. Senator Allen is to be commended for his leadership in 
getting VGB signed into law during his time as Chairman of this 
Subcommittee.
    Of course, while I wish she were here under different 
circumstances, I am pleased that we are joined today by Nancy Baker, 
whose daughter Virginia Graeme Baker was the namesake for this 
legislation after her tragic death in June of 2002.
    I want to recognize one more individual with us today and that is 
Scott Taylor, whose daughter Abbey Taylor was also a victim of suction 
entrapment, and whose death inspired the Abbey's Hope foundation in her 
name to educate the public about pool and spa safety and keep kids 
safe.
    As some of you are aware, the month of May is National Drowning 
Prevention Month. To that end I am pleased to join Ranking Member 
Senator Blumenthal and Commerce Committee Chairman Thune today in 
introducing a resolution supporting the states, including Kansas, that 
have signed proclamations declaring May as ``National Water Safety 
Month,'' recognizing and expressing support for the goals and ideals of 
that designation.
    The upcoming Memorial Day weekend traditionally marks the start of 
summer swimming season. For American families, recreational swimming is 
a time-honored tradition. Swimming pools such as The Big Pool in Garden 
City, Kansas--the largest outdoor municipal concrete swimming pool in 
the world--are fixtures in local communities and popular destinations 
for relief from the summer heat.
    While parents and adults work to monitor children around pools and 
spas and take precautions such as stopping them from running on wet 
surfaces, many don't realize the potential dangers posed by the pool 
drains, and so even when attentive parents and adults are around 
accidents can unfortunately still happen.
    Drowning continues to be ranked second or third among the leading 
causes of death for children, depending on the state, especially for 
children ages one to four years old. In Kansas, there have been 297 
drownings in the past decade. What makes these tragedies all the more 
painful for families is that the accidents are, by and large, 
preventable.
    I appreciate the willingness of our witnesses to discuss sensitive 
topics. Each of our witnesses will bring unique perspective on how to 
avert harm and improve safety for pool and spa-related activities, as 
well as ideas beyond this hearing for improving consumer awareness. I 
appreciate the time you have taken to prepare your heartfelt testimony.
    It is my hope that a Senate hearing that calls attention to pool 
safety leading into the summer season will have a positive impact on 
reducing pool and spa-related injuries and deaths. I thank my colleague 
and Ranking Member, Senator Blumenthal, for being here to help promote 
awareness of the issues surrounding pool and spa safety. Certainly if 
greater awareness can prevent just one child's death, we will have 
succeeded.
    Once again, thank you all for being here. I will now turn to the 
Ranking Member, Senator Blumenthal, for his opening remarks.

    The Chairman. And I recognize the Ranking Member.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Chairman Moran, and thank 
you for having this hearing. I'm very proud to join with you in 
the resolution recognizing May as National Water Safety Month. 
As a longtime swimmer and user of many pools, and as the father 
of four children who have used pools, this is a cause close to 
my heart. I learned about this nightmare from fortunately a few 
constituents in Connecticut when I was Attorney General, 
notably Karen Cohn, of Greenwich.
    I thank you for being here today, Karen, as well as Nancy 
Baker, and sharing your stories with such incredible courage 
and strength and helping us to avoid similar kinds of deaths in 
the future.
    There is no excuse, none, for having the kind of drain that 
led to these deaths. And most Americans probably wouldn't 
recognize one compared to the other, but I just want to have 
both of them held so that you can see, that is, you, the 
audience, can see the difference. [Senator displays two 
different types of drains.] The dangerous drain, on your right, 
which probably is in use in most private pools around the 
country, and the safer one on the left. It's not that pools 
have to go without drains, they just have to install safe 
drains. And as you can see by the comparison, it's not like one 
is vastly more expensive than another, they're made of the same 
material, it's just a different design. And there is absolutely 
no excuse for pools to continue with the less safe one.
    I want to thank Senator Klobuchar for her leadership on 
this issue. The Virginia Graeme Baker Pool and Spa Safety Act 
was first enacted in 2007. And since then, there have been no 
deaths in such public pools and spas across the country. Since 
2009, there have been two deaths in private and residential 
pools and spas, and that has been my focus as an advocate and 
as Attorney General. The simple fact of the matter is the VGB 
Act covers only public pools, which represent just 3 percent of 
all pools in the country. The vast majority of the pools in the 
United States, 8.5 million, are private residential pools 
without the protection of the VGB Act.
    I think that public awareness is tremendously important 
here, and is one of the reasons we're having this hearing, and 
one of the reasons why consumer protection is so important. I 
felt public awareness was critically significant when I served 
as Attorney General and I continue to feel that way now in the 
United States Senate. We can be teachers and educators in this 
body. And you are performing a vitally important service by 
being here and sharing your story because as much as we may 
speechify on the floor of the Senate or elsewhere, your stories 
carry the main impact.
    I hope we will move forward with our resolution. I hope 
also that the plan offered by the President, the budget that 
cuts resources for the Consumer Product Safety Commission, is 
defeated. Reducing those resources simply enables the kinds of 
neglect of consumer and product safety that will lead to less 
awareness and less protection. This budget eliminates funding 
for VGB grants for Fiscal Year 2018.
    As much as we're here to champion this cause, the stark 
fiscal picture is pretty discouraging, and I can guarantee you, 
Karen and Nancy, that I will fight to continue that funding.
    Thank you.
    The Chairman. Senator Blumenthal, thank you very much. I 
know Senator Klobuchar had a significant role in this 
legislation over a long period of time.
    Senator, any opening statement or brief comments you would 
like to make?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, thank you. I did want to get to 
our witnesses, but I want to recognize Scott Taylor, who is in 
the audience. Where are you, Scott? Right there. He and Katey 
were really an inspiration for me when Abbey Taylor was 
severely maimed in a swimming pool in the suburbs of the Twin 
Cities, and she lived for a year after. And I will never 
forget, I went to her hospital room, and this little girl with 
this big smile, all of her intestines sucked out, and she 
looked at me and she says, ``I don't want this to happen to any 
other kid.'' And then she went on, and her parents--Scott would 
never give up on this. He literally called me on my cell phone 
every week and said, ``Has the bill passed yet?'' as if it's 
that easy to pass bills. But, with good leadership and the help 
of a lot of people, including our two wonderful witnesses today 
and their families, Ted Stevens, Mark Pryor, Harry Reid, and 
Trent Lott we got this done. So I'm glad we got this done, and 
I don't want us to rest on our laurels when we know there are 
so many other problems with children drowning stemming from 
private drains, and unrelated to drains.
    So thank you so much.
    The Chairman. Senator Cortez Masto, anything you would like 
to say before we go to questions?
    Senator Cortez Masto. No.
    The Chairman. Thank you very much. I'm going to defer my 
questions till later, and I'll recognize the Ranking Member 
once again.
    Senator Blumenthal. Thank you very much. Again my thanks, 
Mr. Chairman, for having this very important hearing and for 
giving me this opportunity to ask a few questions.
    Let me first ask you, Ms. Cohn, how many children have you 
been able to teach to swim through the Bridgeport ZAC Camp, 
which really has been such a great model and contributor to 
this cause? In your experience, what impact does the VGB grant 
and ZAC Camp have on the Bridgeport community and Connecticut?
    Ms. Cohn. Yes. So first I believe that the grant program is 
very important, so any funding that could be allocated to water 
safety is so important. And so we were able to hold a camp, a 
ZAC Camp, in Bridgeport, as well as Stamford, and we've been 
holding ZAC Camps in Greenwich, Connecticut, since 2011. The 
Greenwich camp is not through the grant program, but the 
Stamford and the Bridgeport was. And we reached about a little 
more than 200 kids through those camps during that time.
    Senator Blumenthal. How did you happen to form that camp? 
Are you aware of other camps that are similarly funded through 
the VGB program?
    Ms. Cohn. So what we did was we ran our own camp, which we 
partner with the Boys and Girls Clubs throughout the country to 
reach underserved children in minority communities, and we do 
that through the BGCA.
    And the ZAC Camp actually has three components. We have a 
curriculum for water safety, and we also include first 
responders, where they come in and do their own safety lesson 
with the kids as well. And that partnership we have throughout 
the country. And through that partnership, we've actually 
reached over 10,000 children. However, what we do is we have 
the ZAC Camps and we use the media markets to get our messaging 
out, so that there are many, many more people that are actually 
hearing about the water safety in addition to the kids that 
we're reaching directly through the camps.
    Senator Blumenthal. That's such an important contribution, 
especially when you consider that drowning remains the number 
one cause of unintentional injury and death in children 1 to 5 
years old. How would you recommend that we make this grant 
program more flexible, do better outreach, so that more states 
and localities apply for pool safety grants? I'll open this 
question to others on the panel as well who may have some 
thoughts.
    Ms. Cohn. Well, first state and localities, what's 
important is that they need to know about the grant program and 
that it's available. And I think that's what we were finding, 
that they were not aware of the ability to apply for the 
grants. And then I think that--I don't know if it's possible, 
but something that we've always talked about is actually 
allowing the other organizations, like the ZAC Foundation or 
Abbey's Hope or other family foundations that are 501(c)(3)'s, 
that maybe they could apply for the grant program as well.
    Senator Blumenthal. Any other thoughts from other members 
of the panel?
    Ms. Harvey. I would echo what Karen said related to having 
other organizations be able to apply. Like we are fundraising 
to be able to provide our Centennial campaign, and the 
requirements deny--they do not allow us to apply for that 
funding. So we actually partner with organizations like the ZAC 
Foundation to extend what they are doing in their ZAC Camps 
into a situation that can be year-round, so those children are 
getting swimming lessons, the parents are learning CPR. It gets 
started with the ZAC Camp and then keeps moving throughout the 
year through the Boys and Girls Clubs.
    Senator Blumenthal. Your organization does great work, and 
there are others, including Stew Leonard's. Stew Leonard has a 
wonderful organization.
    Ms. Harvey. Absolutely.
    Senator Blumenthal. I've worked with Stew Leonard and he 
does great work. It's really an example of cooperative work and 
teamwork and I think a collaboration that sets a model for all 
of us, and I want to thank you as well for being here today. 
Thank you.
    Thanks, Mr. Chair.
    The Chairman. Senator Klobuchar.
    Senator Klobuchar. Thank you very much. I thought we'd have 
Abbey's picture up there so everyone remembers her smiling face 
that I told you about.
    I wanted to start with you, Ms. Baker. We have learned 
there are some cuts in the budget that could affect our 
efforts, and they're to the grant program. Maybe you or Ms. 
Cohn or any one of the witnesses can describe the grant program 
that's part of our bill and why it's so important.
    Ms. Baker. Well, my understanding of the grant program is 
that when states--states could apply for this, and the receipt 
of that funding was contingent on their efforts to fund 
compliance, fund a mechanism to check on compliance, in public 
pool settings and to create statewide drowning prevention 
initiatives. So I think in terms of both the educational 
component and also the more concrete and tangible mechanical 
structural changes that VGB insisted on, that grant program was 
meant to incentivize states to work for compliance. And I think 
it does a terrible disservice to cut the funding.
    I do agree with Mrs. Cohn when she said--and she mentioned 
that states may not be aware that that funding is available to 
them, were they to be proactive in drowning prevention, and I 
think the CPSC, although--I mean, the Pool Safely program has 
truly been successful.
    Senator Klobuchar. Right. Thank you, Ms. Baker. Maybe you 
want to talk about the education efforts, Ms. Cohn, and how you 
think it would be helpful to have more education for private 
pool owners as well.
    Ms. Cohn. So there are several things that through the ZAC 
Foundation we were thinking about, and one I mentioned in my 
testimony, and that is this Subcommittee oversees insurance, 
correct? And so we were thinking that maybe partnering with 
insurance companies so that when they actually go to inspect a 
home--and I actually just had to do this recently in my own 
home because my insurance was changing, and they come in and 
they do a complete inspection.
    While they do that, we have been thinking over the years 
that what they should do is also work with the either locality 
or the state to make sure that that pool at that house is built 
in accordance with the law, and then not insure the home until 
they can insure that it actually is, that that would be one 
way. And also while you're doing that, by the way, you're also 
educating the family because otherwise, they don't know that 
their pool is required to have certain safety rules.
    And then another thing that we talked about with the 
insurance company is also offering discounts to people if they 
have additional safety around their pool that's maybe not 
required by law, but----
    Senator Klobuchar. OK. Thank you, Mr. Gottwald. Do you want 
to talk about those drains again and what makes the new drain 
covers safer? What's the difference in price between them?
    Mr. Gottwald. Sure. Thank you, Senator. Well, the 
difference in price in minimal. I think what I'd like to 
comment to you----
    Senator Klobuchar. Isn't it just a few dollars? Since I 
remember we talked about this.
    Mr. Gottwald. I'm sorry?
    Senator Klobuchar. When we first passed the bill, there was 
a lot of discussion. Would it cost that much?
    Mr. Gottwald. No. It's under $100.
    Senator Klobuchar. Right.
    Mr. Gottwald. I don't have the exact, but it's minimal. And 
I think to your point, is that----
    Senator Klobuchar. And the government didn't pay for the 
drains, it was much more--whatever the public pool was that 
paid for it.
    Mr. Gottwald. Correct. Moving beyond the drains as well, by 
adoption of the code that I mentioned in my testimony, that 
gets into the residential pools. If a state or a locality 
adopts this code, that means the VGB requirements will now be 
applicable to residential pools. So that takes care of the 
drain piece, but as mentioned, there are other safety issues as 
well. This code also has barrier requirements, whether they be 
fencing or whether they be covers on--lockable covers on hot 
tubs, it is the design of the pool, you know, the bell in the 
pool, so that kids, or adults for that matter, don't dive in 
and hit the corner of the pool and get injured that way.
    So there are a whole bunch of safety requirements, 
including the VGB, but beyond the VGB, and adoption of this 
code would go a long way to solving that. I think there is 
somewhere around 25 or 26 states in this country that don't 
mandate a fence around a swimming pool. And we, as the 
industry, don't believe that's correct. And we're lobbying to 
change that and working to change that, but whatever this 
committee can do to help us would be enormously appreciated.
    Senator Klobuchar. OK. Thank you very much. Thank you, all 
of you.
    The Chairman. Ms. Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you. Thank you for this 
important discussion, and thank you for being here.
    I want to follow up on the conversation because we were 
talking a lot about state law, but a lot of this can be 
implemented through county code as well, and I don't want us to 
forget about that. I represent the State of Nevada, and we have 
implemented this law through regulations through the state. 
However, Clark County, which is the largest populated county in 
southern Nevada, with nearly 2 million people, actually adopted 
a code mandating this.
    I don't want us to forget that there are ways to really 
address these issues both at the state and local level--through 
local ordinance as well. I'm very proud that we have a Child 
Drowning Prevention Coalition in southern Nevada. Drownings of 
children 14 and under in southern Nevada went from 49 between 
1994 and 1998 down to 21 from 2012 and 2016, and that's thanks 
to all of you and the advocacy on this issue and bringing 
attention to it. So I really appreciate it. But as you have 
stated here, there's more work to be done and more education is 
necessary.
    I have a couple of questions. One is for all of you. Nevada 
has a very large population, but it's also both rural and 
urban. Out of the 17 counties in Nevada, 15 are rural. I'm 
curious if you see a difference in how we can address the 
education piece when it comes to our rural communities versus 
our urban areas. Do any of you have any thoughts on how we 
address that and bring attention to some of our rural 
communities?
    Ms. Harvey. The American Red Cross feels very strongly that 
dry land water safety education should be required in schools, 
and they should get it every year.
    Senator Cortez Masto. So every school in every community--
--
    Ms. Harvey. Every school every year learns about water 
safety. It doesn't take a body of water in order to learn the 
practices that can save their lives. And if we could get it 
required in schools, we could go a long way to making certain 
that people know how to behave safely around the water and make 
good choices for themselves around the water.
    Senator Cortez Masto. Perfect. Schools, physical 
education----
    Ms. Harvey. Absolutely.
    Senator Cortez Masto.--as long as we still require physical 
education in our schools----
    Ms. Harvey. Right.
    Senator Cortez Masto.--which would be good. I appreciate 
that because I agree, I think there are many ways that we can 
tackle this and thinking outside the box in how we address 
this.
    The other issue that I'm interested in, which you mentioned 
in your statement, Ms. Cohn, is the fact that Black and 
Hispanic American children are three times more likely to drown 
than their Caucasian counterparts.
    Ms. Cohn. Yes.
    Senator Cortez Masto. I'm curious, what can the Federal 
Government do to help bring attention to and address this 
issue? Do you have additional ideas?
    Ms. Cohn. Well, from the Federal Government's side, I think 
the grant program would still be helpful to address those 
children. What we are doing is we're partnering with those 
organizations, but that's me, as a private organization----
    Senator Cortez Masto. Right.
    Ms. Cohn.--partnering with the Boys and Girls Clubs that 
are in those communities to reach those children and families. 
I am not--I don't know if I can think of anything else off the 
top of my head right now about what else the Federal Government 
could do. Obviously making sure that these children are 
swimming in safe pools is important. And education, I think 
maybe through, you know, through Pool Safely and educating 
families about it.
    I think for many of the Black and Hispanic families, it's a 
cultural and generational issue, where the parents don't swim, 
and so they have a fear, and they are afraid to allow their 
children to even learn how to swim. So they try to avoid water 
completely, but that is impossible to do.
    So I would say education and grant programs that could be 
used----
    Senator Cortez Masto. And access to swimming lessons or 
programs that are----
    Ms. Cohn. Of course, yes, yes.
    Senator Cortez Masto. OK.
    Ms. Cohn. So, yes. So what we do is we work with the Boys 
and Girls Clubs, and then we also work with the American Red 
Cross on their Learn to Swim program, and we're reaching those 
same children through those programs.
    Senator Cortez Masto. OK. Thank you. I appreciate the 
conversation today. Thank you very much.
    Ms. Cohn. Thank you.
    Senator Cortez Masto. Oh, I'm sorry, did you----
    Ms. Harvey. Sure. I would love to add to that as well.
    Senator Cortez Masto. Please. Go ahead.
    Ms. Harvey. I believe wholeheartedly that we need to expand 
the conversation so that we get to those target audiences in 
other ways. So looking at the programs at Historically Black 
Colleges and Universities as an example, making certain that 
those swimming programs stay around in their programs and 
thrive and become part of the community, such as what is 
happening in Prairie View, Texas, and in Coppin State 
University in Baltimore.
    We recently had a symposium with our partners. There's an 
organization called Diversity in Aquatics where it represents 
primarily African American and Hispanics who want to dispel the 
myth that African Americans and Hispanics don't swim, because 
they do. And they also want to encourage participation in 
aquatic activities. So it's made up of organizations like the 
Association of Black Scuba Divers and collegiate athletes and 
Olympians and such.
    So reaching--working with organizations like that who 
provide role models and say, ``Yes, we do swim,'' and, ``Yes, 
this is a life skill for us all.'' And fraternities and 
sororities, talking to the moms and sisters, who are often 
making choices for their kids about whether they're going to 
take swimming lessons or not. So we just need to expand the 
conversation and keep it going and look to our partners, our 
diverse partners, who could also be sitting up at this table 
and helping, and they are helping to solve this problem.
    Senator Cortez Masto. Thank you, and thank you for those 
comments. As somebody who has fought for so many years just on 
education and awareness, recognizing that's the first step in 
prevention, we never fund education and awareness and that to 
me is really the first step. I thank you again for the advocacy 
and bringing attention to this issue and awareness. You're 
going to save lives, so thank you for that.
    Ms. Harvey. Thank you.
    The Chairman. Thank you, Senator. What I'm told by my 
staff, which is--I've questioned them several times because it 
seems incorrect to me, but they assure me that it's true, that 
only to date the Consumer Protection Safety Commission has only 
provided grants to applicants under this program on five 
occasions. That seems to me to be a very, very low number, and 
my understanding in part is that a number of the grantees have 
been in Connecticut, and particularly where the ZAC Foundation 
has promoted the grantee the grant application and the award. 
And that means that there's a positive balance in that account, 
more money to be made available for grants, or money is 
available for grants.
    So what is it that--you've all touched on this, but what am 
I missing here that's not happening? This is directed to anyone 
who wants to explain.
    Mr. Gottwald?
    Mr. Gottwald. Well, I can't really comment on why they're 
not going for the grants, but I do know that through the work 
of the International Code Council and the trade association as 
well that 22 states have now adopted the code, and by adopting 
the code, the CPSC has determined that that means you are in 
compliance with their requirements in order to get grants. But 
the good news is----
    The Chairman. Let me stop you then.
    Mr. Gottwald. Yes.
    The Chairman. So the grant is not designed to get a pool in 
compliance?
    Mr. Gottwald. The grant--from the way I understand it, the 
grant does a couple of things. In order to get the grant, 
you've got to commit to coming into compliance, and then it 
provides you materials to educate about why that is important 
and to get people into compliance. So if a state adopts the 
code, they're now eligible for the grant.
    So the good news of that is that states are starting to see 
the value of adopting the code----
    The Chairman. Therefore, the grant becomes more important.
    Mr. Gottwald. Yes. The grant becomes--now it becomes 
available to them. Now, why they're not taking that next step, 
I don't know the answer to that.
    The Chairman. Let me ask this question then. So if your 
state hasn't adopted the code, are you ineligible for the 
grant?
    Mr. Gottwald. There are other ways to become eligible for 
the grant, but that's the easiest way to become eligible for 
the grant. You could adopt, for instance, just the standard 
that's in here called APSP-7, you could adopt that standard. 
That's one of the requirements to be--there are several things 
that they list out in order to become compliant to get that 
grant, but this is the easiest and most comprehensive way.
    The Chairman. Do you all have any suggestions, a critique 
of the Consumer Protection Safety Commission? I serve on the 
Appropriations Committee subcommittee that funds that 
Commission. When their appropriations request is in front of us 
or we're talking to the Commission, what is it that you would 
like for me to emphasize or to pursue with them?
    Ms. Baker. I would like you to ask the CPSC why it is that 
more states have not actually applied for this grant 
opportunity?
    The Chairman. So I ask them the question I'm asking you.
    Ms. Baker. Exactly.
    The Chairman. Correct. As I was asking the question, it 
made----
    Ms. Baker. Because I think it's curious why even in states 
where--that are in compliance, it leads me to believe that 
states are just not aware that there is grant money available 
to them for becoming compliant and also for making sure that 
there's a mechanism for checking pools. Obviously, you have to 
check pools and verify that the compliance, the requirements, 
have been met, or the code has been met.
    The Chairman. And I assume that's done by state and local 
officials, not----
    Ms. Baker. So that's oversight, yes.
    The Chairman. And do any of you have an idea of what the 
parameters of the grant--what's the average or normal size of a 
grant? Is the number of dollars sufficient that it becomes 
worthwhile to pursue the grant?
    Ms. Baker. Do you know?
    Ms. Cohn. Is it--I think it--I think it's--yes, I think 
it's $250,000. I'm not positive, but I think that's the amount.
    The Chairman. OK. I'm not expecting you necessarily to know 
the answers. There are others, the Commission in particular, 
that I can be asking these questions of, but you're helping me 
get prepared.
    Ms. Cohn. But I also think, as Nancy said, I think it's 
just a matter of the states and the localities being unaware 
that the program even exists.
    The Chairman. OK.
    Ms. Baker. And you also just rang a memory bell for me. 
When I saw this, and it is, it's a bell, and it gets dim in 
time, but I do recall the money that was available to each 
state through this grant program was really not significant. I 
think the overall appropriation was $2 million for 52 states. I 
mean, if every state became suddenly great pool safety drowning 
prevention advocacy, that's not a large pool of money when you 
consider paying the salaries of the local people who have to go 
out and check that indeed the requirements have been met and 
kids and families are safer.
    The Chairman. I've been informed that the five grantees: 
the City of Bridgeport, Connecticut, almost $75,000; the 
District of Columbia Department of Health, about $170,000; the 
Florida Department of Health, Broward County, $250,000; the 
Florida Department of Health, Lake County, $155,000; and the 
City of Stamford, Connecticut, $131,000. So you were correct, 
several hundred thousand dollars.
    Any belief that the Commission is--let me ask you again, is 
there anything in particular other than what Ms. Baker just 
said that I should be asking the Commission about this grant 
program? It's being managed well from your perspective except 
it needs to be more--better utilized?
    Mr. Gottwald. Yes, I would respond to that. The CPSC are 
great partners for us, and why the people aren't going for the 
grants, I don't know that, but beyond that, they're very good 
partners I think in the work that we do with them.
    Ms. Harvey. And similarly, the Red Cross hasn't been 
involved in the grants side of it, but the Pool Safely campaign 
is a super important campaign to the industry in that it 
provides wonderful resources that aquatics facilities across 
the Nation are able to access and share with the communities 
they serve. And so it really does provide a consistent set of 
messages. Again, they are action steps that are lifesaving, and 
it really is important to be able to have that. Otherwise, each 
organization, you take it down to the Parks and Recreation 
Department level, they would have to create their own. They may 
have incomplete messages. It depends on the veracity of their 
communications departments often.
    So it is extremely valuable to the Parks and Recreation, 
Boys and Girls Clubs, JCCs, YMCAs out there. We really rely on 
those resources.
    The Chairman. Is there any state or local unit of 
government that any of you would hold out as a role model, 
somebody that's doing this especially well that we ought to 
highlight and indicate to other states and local units of 
government, ``Look here, this is how to do this''?
    Ms. Harvey. I think the ones to look to, to see how they 
are doing are the ones that have a lot of experience. And the 
City of Las Vegas, Clark County; Maricopa County in Arizona: 
those are two counties that are extremely impacted by 
drownings, and they have very strong coalitions, and I think 
they're definitely worth looking at what they have done, 
bringing in a large coalition of people, including the fire 
departments, all the pools across their systems. So those are 
two to certainly check out.
    The Chairman. Mr. Gottwald, as I indicated earlier, 
community pools, municipal pools, are the norm across Kansas. 
You can be the smallest, one of the smallest communities in our 
state, you will still have a municipal pool. And who is it 
that's telling that city council, that city clerk, that, ``Your 
pool needs to comply with these standards''?
    Mr. Gottwald. So first of all, from public pools, so it's 
the law of the land. So who's telling them that they should 
be--the health department or the building department, depending 
on different municipalities, are going to be the ones who are 
going to be regulating that.
    The Chairman. When one of your members sells a new pool, 
that's clearly going to be part of the contract, the agreement, 
of what's purchased, right?
    Mr. Gottwald. Absolutely. And the genius of the Virginia 
Graeme Baker Act, the VGB Act, is that year one, you can no 
longer manufacture the problem fittings. So those are off the 
market, they can't be sold, and that's been 10 years now. So no 
matter what's being replaced today, it's a compliant drain 
cover.
    The Chairman. In the public sector?
    Mr. Gottwald. In all sectors. You can't buy that anywhere.
    The Chairman. OK.
    Mr. Gottwald. So even in the residential sectors, we have 
what I mentioned earlier, the ``Check A Drain'' campaign. So we 
talk to our members who are in someone's backyard, we're always 
telling them, ``Check the drain, ``Check the drain,'' ``Make 
sure it's compliant.'' So slowly, but it's slowly, they're 
being replaced with compliant drains. It's the law in the 
public pools. In the residential pools in many places, it's not 
the law.
    The Chairman. Where it's not the law in the private sector, 
the private pools?
    Mr. Gottwald. Correct.
    The Chairman. It's still taking place is what you're 
telling me because of the requirement that the pool, the 
manufactured pool, has to be compliant. So as new pools come 
into play, they're compliant even in the private sector.
    Mr. Gottwald. In the new pools, but I think as, you know, 
was mentioned earlier, the existing pools are where the 
challenge lies, and there are a few million out there.
    The Chairman. My time is well expired. Let me see if 
Senator Blumenthal has any additional questions?
    Senator Blumenthal. I don't.
    The Chairman. Senator Cortez Masto?
    [No audible response.]
    The Chairman. I appreciate the conversation today. It has 
been very helpful to me. And I'm very grateful for the chance 
to try to make certain that communities across Kansas and 
private pool owners in my state and around the country know of 
not only their responsibilities, but their opportunity to do 
something in a very safe and secure manner.
    Let me ask perhaps my final question. The Red Cross, you've 
been training lifeguards for as long as I've been around. We 
have plenty of lifeguards in the country and the supply meets 
the demand?
    Ms. Harvey. We always are in an effort to ensure that there 
are enough lifeguards in the Nation. There are pockets of the 
country where we hear that there are lifeguarding shortages. 
This is one of the reasons that the Centennial Campaign is so 
great, where we are really trying to make certain that we 
continue to feed that pipeline of lifeguards by ensuring that 
people get to water competency so when it's time for them to 
become lifeguards, they have the skill to do so. So it's a 
continuous effort.
    The Chairman. Let me ask, I'm asked this in every hearing I 
chair, is there anything that any of you would like to make 
more clear and respond to something that you were asked or 
something that you were not asked, something you want to make 
certain we know before I conclude the hearing?
    [No audible response.]
    The Chairman. OK. Thank you very much. Thank you all for 
joining us. This hearing is concluded. The committee members 
have until a few days from now to put their questions in 
writing, and we would ask that you respond as quickly as 
possible if there are those. And again thank you for your 
presence today. The Committee hearing is adjourned.
    [Whereupon, at 4:27 p.m., the hearing was adjourned.]

                            A P P E N D I X

 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                              Nancy Baker
    Question 1. While advertising campaigns and educational materials 
promoting water safety are vitally important, is there any substitute 
to in-person and hands-on classes where at-risk children can learn how 
to swim?
    Answer. Unlike baseball, football, chess and other important 
activities for which children engage and learn from, swim lessons are 
different and more critical. Other activities are ``life skills'' while 
learning to swim is a ``lifesaving skill''. We speak so often about 
``layers of protection''. One of the most important layer is learning 
how to swim (starting at an early age). Swim lessons should be readily 
accessible or very inexpensive or better yet free to all populations, 
but especially for minority populations. Groups like Abbey's Hope 
Charitable Foundation and its partnership with the YMCA and The ZAC 
Foundation and its partnership with the Boys & Girls Clubs do an 
excellent job of crafting and underwriting programs that get children 
in the pool to learn hands-on swimming and safety skills. To date, 
these organizations have provided free swim lessons to thousands of 
children around the country. Abbey's Hope alone has provided well over 
10,000 lessons to children in the State of Minnesota. Congress should 
support these programs and even consider using a portion of the 
Consumer Product Safety Commission Pool Safely funding to support these 
activities in communities across the Nation.

    Question 2. Drowning remains the number one cause of unintentional 
injury death in children 1-5 years. Wouldn't funding cuts to states and 
localities that teach at-risk children how to swim hurt efforts to 
reduce drowning?
    Answer. Yes. That does not mean, however, that the CPSC grant 
program cannot be reformulated or reorganized to better serve water 
safety efforts. See answer to Questions #3 & #4 below.

    Question 3. How does the 2015 International Swimming Pool and Spa 
Code compare to the requirements in the VGB Act? In what areas is it 
stronger or weaker? Do you think VGBA grants should be updated to 
reflect the requirements under the most recent International Swimming 
Pool and Spa Code?
    Answer. The original purpose of the VGB Act Grants were to do for 
residential pool & spas what the actual requirements of the VGB Act did 
and does for public pools. In other words, because Congress felt, at 
the time of passage, it could not require private residential pool and 
spa owners to comply with the Federal Act requirements by mandating 
anti-entrapment safety & drowning prevention devices, the original 
grant program was meant to incentivize States (and later 
municipalities) to pass laws that require the same safety devices in 
residential pools as the VGB Act does for public pools. As is 
mentioned, the original grant program has only had limited success.
    The ISPSC is consistent, and in fact stronger, than the 
requirements of the Act and the original grant scheme in many ways 
(electrical bonding, diving depths, safety makings poolside, water 
quality and chemical safety . . .), but the code does leave out one 
very important requirement. It does not apply to existing residential 
pools and spas, but only new construction of residential pools and 
spas. Adding the ISPSC would improve the strength of the Act, but would 
leave out existing residential aquatic venues and therefore not meeting 
the intent of the original grant program. Adding the ISPSC code 
requirements would be helpful, so long as the protection for 
residential pools and spas are preserved.

    Question 4. Do you think more flexibility in how grant dollars can 
be used would encourage more states and localities to apply for Pool 
Safely Grants?
    Answer. The lack of demand for the grant program almost demands 
more flexibility. Grant money, if awarded, should be used for 
enforcement, training, education hiring inspectors and even reasonable 
administrative costs including salaries. Congress could also consider 
expanding the type of eligible recipients of the grants to include non-
profits in the drowning prevention arena (i.e., non-profit members of 
Families United Against Drowning like Abbey's Hope Charitable 
Foundation, The ZAC Foundation, The Joshua Collingsworth Memorial 
Foundation, CPR Parties among many others, Safe Kids Coalitions, YMCA 
Chapters . . .). Those non-profits can partner with the State or 
municipality that passes a law that meet the requirements of the VGB 
Act Incentive Grant Program. These non-profits can help expand the 
reach of programs under the Act. Many of these non-profit programs are 
already organized and implemented so very little of the received grant 
money would go to start up or administrative costs, therefore, more 
resources would reach need populations on a faster basis. Expanding the 
list of eligible grant recipients to include non-profits that are doing 
good water safety work would also motivate them to help pass the 
stronger state laws for which the original grant program was intended. 
Were Congress to make established non-profits eligible for grants under 
VGB many would become an even stronger advocacy voice in their 
communities.

    Question 5. Do you think lifeguards or pool owners should be 
required to check that drains are securely in place before opening to 
the public each day?
    Answer. Yes. In fact, one of the requirements of the Minnesota law, 
The Abigail Taylor Pool & Spa Safety Act requires just such a daily 
inspection. Abbey Taylor died as a result of a broken drain that, if it 
had been inspected that day, could have prevented the tragedy from 
happening in the first place. The VGB Act did not specifically require 
a daily safety inspection and it should have. It is good practice and 
should be required.

    Question 6. Should preventing electrical shock or increasing 
awareness and what to do when someone is suffering an electrical shock 
be a part of our water safety education efforts?
    Answer. Yes.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                               Karen Cohn
    Question 1. While advertising campaigns and educational materials 
promoting water safety are vitally important, is there any substitute 
to in-person and hands-on classes where at-risk children can learn how 
to swim?
    Answer. The ZAC Foundation (TZF) has found via its programming in 
media markets throughout the United States that it is true that hands-
on education and training is the most effective approach to water 
safety, but general educational awareness should not be discounted as 
effective. TZF has found that there often exists a generational, 
cultural, and/or pool access gap that leaves, particularly minority 
children, with a lack of understanding regarding the danger that water 
poses. The goal of any water safety program should be to create a 
generational impact that will be passed on to future generations in 
perpetuity--similar to the generational change that occurred with bike 
helmets. Among many other tools and programs, the Foundation published 
a book--``The Polar Bear Who Couldn't, Wouldn't Swim''--in an effort to 
effectuate this change. We have anecdotal evidence that our ZAC Camps 
(weeklong swim education programs conducted in partnership with the 
Boys & Girls Clubs of America where each of the 13,000 children have 
received a copy of the children's book) and the media attention that 
these Camps spur, have served to reduce incidences of unintentional 
drowning in those communities.

    Question 2. Drowning remains the number one cause of unintentional 
injury death in children 1-5 years. Wouldn't funding cuts to states and 
localities that teach at-risk children how to swim hurt efforts to 
reduce drowning?
    Answer. The ZAC Foundation believes in education and awareness of 
water safety, as well as the exposure of all Americans to water safety 
lessons. To answer this question one would need to know the reporting 
data that came from those programs. The Foundation supports water 
safety grants, but believes that any use of funding have a direct 
correlation to safety impact. TZF was involved in those Connecticut 
grant sites, and the Foundation has eagerly awaited any report or data 
that resulted. In general, the Foundation would support a change in the 
Virginia Graeme Baker grants to enable foundations like ours to compete 
to employ such funding for effective programming. If the programming is 
not effective, it should not be pursued. The Foundation believes that 
the lack of participation historically in the water safety grant 
program has been the requirement that the state/locale pass legislation 
equivalent to or exceeding VGBA. This is not something policymakers 
have been willing to do in order to secure a short-term, one-time 
grant. If the government is looking to apply funds and receive 
exponential returns on that investment, then our Foundation believes 
grant recipients should be the party or parties with the most direct 
reach and effective approach to education and safety.

    Question 3. How does the 2015 International Swimming Pool and Spa 
Code compare to the requirements in the VGB Act? In what areas is it 
stronger or weaker? Do you think VGBA grants should be updated to 
reflect the requirements under the most recent International Swimming 
Pool and Spa Code?
    Answer. The ZAC Foundation supports the strongest and most 
effective water safety standards, period. That said, the Foundation 
does not believe standards should be raised if the effect is not to 
improve safety. The VGBA, including any other water safety law, should 
be revisited periodically to ensure that it reflects the most modern 
technology and standards. And taxpayer funds only should be applied 
when recipients are compliant with the agreed upon standards for water 
safety. The Committee should be aware of efforts by the pool and spa 
industry to weaken state pool and spa safety regulations/laws, such as 
the effort that was successful in our and your home state of 
Connecticut.

    Question 4. Do you think more flexibility in how grant dollars can 
be used would encourage more states and localities to apply for Pool 
Safely Grants?
    Answer. Yes. The participation has been very limited despite our 
recruitment across the country to convince states/locales to apply. The 
issue has more to do with the threshold to qualify--to meet or exceed 
VGBA standards. We believe this standard coupled with the regulatory 
restrictions related to salaries and enforcement personnel are 
artificial limitations to delivering life-saving water safety education 
to targeted audiences. The Foundation respectfully suggests that the 
grant program be opened to competitive bid to applicants, including 
state and local communities, nonprofits and other parties, that propose 
the most effective and efficient uses of the grant funding for their 
intended purpose--to reduce unintentional drowning incidences.

    Question 5. Do you think lifeguards or pool owners should be 
required to check that drains are securely in place before opening to 
the public each day?
    Answer. No pool, public or private, should be operational without 
inspection of pool drains, irrespective of who inspects. The gap in 
VGBA is that it only applies to public pools--which represents only 3 
percent of pools in the United States. No pool should be built in the 
U.S. without being compliant with drain safety standards, and the 
Foundation believes that homeowners insurance policy providers should 
require that pool drains and other aspects of pools be inspected before 
covering those pools under their policies.

    Question 6. Should preventing electrical shock or increasing 
awareness and what to do when someone is suffering an electrical shock 
be a part of our water safety education efforts?
    Answer. Swimming pools and spas are inherently dangerous consumer 
products. Electrocution absolutely has entered the national dialogue as 
a result of several unfathomable incidences, and The ZAC Foundation has 
engaged effected families in partnership to raise awareness of this 
issue. The Foundation believes electrocution should be part of the 
dialogue, we will continue to include the messages in education 
efforts, and believe that homeowners' insurance providers should 
include inspection of electrical lines and lights in and around pools 
and spas.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                            Richard Gottwald
    Question 1. While advertising campaigns and educational materials 
promoting water safety are vitally important, is there any substitute 
to in-person and hands-on classes where at-risk children can learn how 
to swim?
    Answer. Learning to swim is by far one of the most important things 
that can be done to prevent drowning not only for at-risk children, but 
all children. Although there are additional ways to combat drownings, 
we believe there is no substitution to in-person and hands-on swim 
classes. We believe that USA Swimming's Make a Splash learn to swim 
initiative is one of the many outstanding programs that serve all 
children, but specifically target at-risk children. Many APSP local 
chapters throughout the country promote drowning prevention in various 
ways, including raising money for swimming lesson scholarship funding 
to help low-income families access lessons.
    Although nothing can substitute for learning to swim, APSP provides 
advertising campaigns and educational materials highlighting the 
critical importance of adult supervision, even for children who know 
how to swim, along with the importance of complying with barrier 
prevention methods and addressing other safety risks such as suction 
entrapment avoidance. All of the critical components to drowning 
prevention are highlighted in our National Water Safety Month campaign 
held each May: http://www.nationalwatersafetymonth.org. All 50 states 
provide proclamations recognizing May as National Water Safety Month, 
and in observance of National Water Safety Month, events are planned 
throughout the country and water safety tips and resources are provided 
to the public.
    APSP and its local chapters support and collaborate with not-for-
profit foundations such as Safe Kids WorldWide, the National Drowning 
Prevention Alliance, American Red Cross, National Recreation and Park 
Association, YMCA, and the World Waterpark Association's World's 
Largest Swim Lesson. Many of these same groups, along with other 
associations and industry companies, partner with us to raise awareness 
for National Water Safety Month, but our efforts do not end there. 
Promoting water safety throughout the year, with an emphasis on 
teaching kids to swim, is critical to drowning prevention.

    Question 2. How does the 2015 International Swimming Pool and Spa 
Code compare to the requirements in the VGB Act? In what areas is it 
stronger or weaker? Do you think VGBA grants should be updated to 
reflect the requirements under the most recent International Swimming 
Pool and Spa Code?
    Answer. The ISPSC (2012, 2015 and 2018 editions) meets and exceeds 
all of the requirements of the VGB Act with regard to entrapment 
protection by:

  1.  Referencing the ANSI/APSP-16, which is the current Drain Cover 
        Standard adopted by the Consumer Product Safety Commission 
        (CPSC) under section 1404(b).

  2.  Referencing and including a copy of the ANSI/APSP 7 Entrapment 
        prevention standard. This Standard requires compliant drain 
        covers on all pools, consistent with 1404(c)(1)(A)(i).

  3.  Requiring additional devices on all pools with a single main 
        drain, other than an unblockable drain, consistent with 
        (1404(c)(1)(A)(i)).

  4.  Requiring all new pools to be built with: no drain, an 
        unblockable drain, or multiple drains properly spaced and 
        balanced.

  5.  Specifically permitting drainless pools.

    The ISPSC also extends each of the above protections to all 
residential pools, consistent with the VGB Act State Grant Program. A 
state that adopts the ISPSC now will be required to provide entrapment 
protection whereas the VGB Act does not mandate such requirements on 
residential pools, only public pools.
    The ISPSC imposes barrier requirements on all public and 
residential pools, in a manner consistent with the VGB Act State Grant 
Program (Section 1406 and CPSC Model State Legislation). These 
requirements also meet or exceed the requirements of every state that 
has adopted barrier requirements by law. Again, adoption of the ISPSC 
provides barrier protection requirements beyond what is mandated in the 
VGB Act.
    The CPSC has confirmed that any state or locality that adopts the 
ISPSC is in compliance with all of the eligibility requirements for the 
VGB Act State Grant Program, and on December 11, 2015, issued a Fiscal 
Year 2016 grant to the District of Columbia under this program based on 
its adoption of the ISPSC.
    Updating the State Grant Program to reference the ISPSC would 
provide strong encouragement to states and local jurisdictions to adopt 
this Code, thereby strengthening their respective barrier requirements 
and ensuring that their entrapment and barrier provisions meet and 
exceed those in the VGB Act. Many states currently do not require any 
barriers on residential pools.
    In addition, the ISPSC provides other pool safety requirements not 
included in the VGB Act related to the proper construction of a pool, 
such as compliant dimensions and slopes (to prevent diving accidents), 
exits and entry, decking and lighting provisions, along with compliance 
with the National Electrical Code. The ISPSC is the first and only 
comprehensive swimming pool and spa code that addresses all types 
(residential and public) and covers all aspects of construction and 
design, including the barrier and entrapment prevention requirements 
under the VGB Act.
    Finally, we encourage Congress to extend the grant program to allow 
non-profit organizations to apply, because they may be best equipped to 
provide the education and safety awareness and training intended in 
Section 1405.
    Please see attached ISPSC FAQ developed by the APSP.

    Question 3. What is the life span of a pool drain cover? How can 
pool owners tell when a drain should be replaced?
    Answer. The International Swimming Pool & Spa Code (ISPSC) 
references the ANSI/APSP-16 Standard for Suction Fittings for Use in 
Swimming Pools, Wading Pools, Spas, and Hot Tubs, which requires that 
manufacturers determine a life expectancy and place a permanent mark on 
the top surface of the cover/grate with ``Life: X Years'' to indicate 
that drain cover's exact life span. Many manufacturers have designated 
a life span of 5 years. Others have designated longer or shorter 
periods. Since the VGB Act, numerous fittings have been installed; 
therefore, many have or are about to reach their expiration date and 
need to be replaced before the start of a new swim season.
    Knowing this time-frame was upon us, a few years ago APSP began its 
``Check A Drain'' Campaign. The initiative reminds both homeowners as 
well as pool and spa professionals to make sure pool, spa, and hot tub 
drain covers are replaced per the manufacturer's time requirement 
stamped on the cover in accordance with Federal mandates in the VGB 
Act. Further, APSP encourages homeowners to contact their pool, spa, 
and hot tub professional to ensure that all installed drain covers 
comply with the ANSI/APSP-16 Standard. All units should be installed by 
an industry professional, in accordance with the drain cover 
manufacturers' instructions.
    The ``Check A Drain'' initiative also includes FAQs regarding drain 
cover life expectancy and replacement (attached).

    Question 4. Are there new or improved filtration techniques or 
chemicals that can improve water quality? If so, what is the barrier to 
their adoption? Are there common sense guidelines or new technology 
that will keep pools clean and free of these contaminants?
    Answer. The APSP and the pool and spa industry continue to 
constantly address water quality and sanitization in accordance with 
Environmental Protection Agency (EPA) regulations, CDC recommendations, 
and the regulated manufacturer product labeling, through several means, 
including:

  1.  The ISPSC, which requires proper equipment and methods in public 
        and residential pools for circulation and sanitization.

  2.  The development of the ANSI/APSP-11 Recreational Water Quality 
        Standard which addresses existing and new potential means for 
        maintaining public pools.

  3.  Provisions in the ANSI/APSP-5 Standard for Inground Residential 
        Pools addressing quality and sanitization of residential pools.

  4.  Participation in development of other relevant standards such as 
        NSF-50, the standard for ``Equipment for Swimming Pools, Spas, 
        Hot Tubs and other Recreational Water Facilities,'' which also 
        focuses on maintaining a clean and healthy recreational water 
        facility.

  5.  Promoting and offering industry education including the APSP 
        Certified Service Professional program, which highlights issues 
        such as maintaining proper water quality, sanitization, and 
        circulation.

    In addition, the ISPSC and all APSP standards are performance-based 
to allow for and to encourage innovation, which has included automatic 
and manual chemical feeders and alternative substances.
    The APSP does not believe there are any substantial barriers to 
entry for any substances or related products in this area. Equipment 
and chemicals are regulated by NSF certification, upon state adoption 
to require such certification and by Federal EPA regulations.

    Question 5. In 2003, the CPSC and American Red Cross teamed up to 
warn the public about another hidden danger to swimmers: electrocution 
from faulty underwater lighting, aging electrical wiring, equipment 
that is not grounded, or electrical appliances falling into the water. 
At the time, there had been 60 deaths and nearly 50 serious shocks 
reported over the past 13 years involving electrical hazards in and 
around swimming pools. Since then, 14 people have died by electrocution 
in swimming pools between 2003 and 2014. What more can pool and spa 
professionals be doing to prevent electrocution? Are these risks 
considered in the International Swimming Pool and Spa Code?
    Answer. The International Swimming Pool & Spa Code (ISPSC) requires 
compliance with NFPA 70, the National Electrical Code (NEC). The APSP 
has always and continues to educate its members on the importance of 
following the NEC and what requirements exist within that Code. One of 
our technical committee members sits on Panel 17 of the National Fire 
Protection Association, the panel charged with reviewing and adopting 
changes to Article 680, NFPA 70 (the National Electrical Code), which 
provides the electrical requirements for pools and spas. By having the 
ISPSC require compliance with the NEC, we are ensuring consistency, but 
also providing another means for requiring compliance with the pool and 
spa electrical provisions within the NEC.
    APSP has also issued press releases reminding its members and the 
public that all pools and spas should be built and installed in 
compliance with the ISPSC and the National Electrical Code. APSP 
encourages inspection, detection, and correction of electrical hazards 
in and around swimming pools, hot tubs, and spas. We regularly remind 
our members and the public that proper maintenance and upkeep is 
critical, especially for older pools and spas and equipment, which not 
only exhibit the effects of age but also might have not been built to 
modern standards.
    Older pools can pose a higher risk of exposure to stray current 
(regardless of its source) due to wear and tear of existing equipment 
that may have not been inspected in years. Aging electrical wiring, 
damaged underwater lighting in light niches, sump pumps and vacuums 
that are not grounded, and lack of proper equipotential bonding are all 
concerns that the public and professionals must be aware of. All of 
these hazards present an even greater risk if the lighting, circuits, 
and nearby receptacles are not protected by proper Class A Ground-Fault 
Circuit-Interrupters (GFCIs)--one of the best safety devices to help 
prevent electrocution. All of these issues can be evaluated and 
addressed by a qualified and trained industry professional. In some 
states, licensure is required to do such electric work.
    We have found that in many incidents, the Code has not been 
followed, unqualified people have been hired, or an older pool has not 
had the proper maintenance provided over the years. APSP works to 
educate our members and the public on the importance of proper 
maintenance, choosing qualified and trained professionals and following 
the Codes. An FAQ was also developed to address the electrical 
incidents in pools & spas (attached).
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                             Connie Harvey
    Question 1. While advertising campaigns and educational materials 
promoting water safety are vitally important, is there any substitute 
to in-person and hands-on classes where at-risk children can learn how 
to swim?
    Answer. The American Red Cross advocates that everyone becomes 
``water smart.'' It is a combination of water safety and swimming 
knowledge and skills that help children and adults to be able to enjoy 
the water safely.
    When it comes to learning to swim, there is no substitute for in-
person, in-water lessons for people of all ages. The Red Cross has 
established a definition of water competency--the minimum skills that 
everyone should have. These critical water safety skills are the 
ability to do the following, in a sequence: 1. Step or jump into water 
over your head; 2. Return to the surface and float or tread water for 
one minute; 3. Turn around in a full circle and find an exit; 4. Swim 
25 yards to the exit; and 5. Exit from the water. If in a pool, be able 
to exit without using the ladder.
    Water safety knowledge and skills should be an integral part of 
every swim lesson experience as they teach people how to prevent water 
emergencies from happening in the first place and appropriately respond 
if things go wrong.
    The Red Cross also advocates that water safety education be 
included in dry land settings, such as classrooms and parks and 
recreation programs. Teaching the basic concepts of water safety and 
drowning prevention helps lay a foundation and raises awareness of the 
need to be prepared and safety-conscious whenever around water.

    Question 2. Drowning remains the number one cause of unintentional 
injury death in children 1-5 years. Wouldn't funding cuts to states and 
localities that teach at-risk children how to swim hurt efforts to 
reduce drowning?
    Answer. The Red Cross believes that swimming is a life skill that 
everyone should have, regardless of their ability to pay for swim 
lessons. Many organizations that offer swim lessons do not have the 
resources to be able to subsidize the expenses that would make them 
available at low or no cost. Grant funding can help organizations make 
swim lessons and water safety education available, accessible and 
affordable in parts of their communities where the need is greatest.
    Grant funding that focuses on drowning prevention can help 
organizations advance important goals, especially when multiple groups 
come together. In my written and oral testimony, I shared highlights of 
the Red Cross Aquatics Centennial Campaign. Our Centennial Campaign 
supports Red Cross Licensed Training Providers by helping provide more 
swim lessons to the communities they serve by significantly reducing 
the costs of swim lessons and water safety education. The campaign also 
offsets the cost of training the lifeguards and swim instructors needed 
to provide the lessons.
    Grant funding that is made available to national organizations, 
like the Red Cross, can help extend what our training partners, such as 
municipal parks and recreation departments, schools and service 
organizations, can do. There is no doubt that these collaborations, 
powered by grant and donor dollars, make a lifesaving difference.

    Question 3. Does the Red Cross teach its lifeguards about the risks 
of drain entrapment? Are Red Cross-certified lifeguards trained to 
regularly check drains to ensure they are compliant with the VGB Act 
and are securely in place to reduce risk of drain entrapment?
    Answer. The dangers of drains and drain entrapment are included in 
all Red Cross training programs for lifeguard managers, lifeguards, 
swim instructors and swim lesson participants. Facility management and/
or pool operators ultimately have responsibility for the overall safety 
of an aquatic facility, which includes meeting federal, state and local 
requirements, such as compliance with the Virginia Graeme Baker Pool 
and Spa Safety Act (VGBA).
    The Red Cross recommends that each facility includes personnel 
trained in the Red Cross Lifeguard Management course, which helps 
educate them about these responsibilities, including compliance with 
the VGBA. Lifeguard Management participants are taught that to meet the 
requirements of the Federal law, main drains must have a VGBA-compliant 
cover, a mounting frame, a sump and fasteners to make sure the drain 
cover is attached securely to the sump. They are also encouraged to 
conduct daily inspections of aquatic facilities as an important risk 
management strategy.
    Lifeguards play an important role in facility safety. As part of 
the safety team, lifeguards are typically tasked with conducting daily 
facility safety checks that include making sure the drain covers and 
suction fittings are undamaged and secured. Red Cross-trained 
lifeguards are also instructed to intervene if patrons are playing 
around drains and suction fittings and warn them of the dangers. And, 
Red Cross-trained Water Safety Instructors (swim instructors) are 
taught the dangers of drains and entrapment injuries so they can help 
educate swim lesson participants about drain safety.
    Although requirements of the VGBA only apply to public pools, the 
Red Cross, in partnership with the National Swimming Pool Foundation, 
included the recommendation for all pool and spa owners to install 
VGBA-compliant covers in the online course Home Pool Essentials: 
Maintenance and Safety and cautions to avoid playing or swimming near 
drains and suction fittings.

    Question 4. What steps can we take to minimize our exposure to the 
bacteria and bugs in the water?
    Answer. Red Cross Lifeguard Management, Lifeguarding, Water Safety 
Instructor, Home Pool Essentials and swim lessons courses all include 
content on the importance of good water quality, recreational water 
illnesses and prevention practices, including the Six ``Pleas'' for 
Healthy Swimming that are based on guidance from the Centers for 
Disease Control and Prevention.
    The Six ``Pleas,'' as presented in the American Red Cross Swimming 
and Water Safety manual, are adapted from Centers for Disease Control 
and Prevention: Six Steps for Health Swimming (http://www.cdc.gov/
healthyswimming/):

  1.  Please do not swim when you have diarrhea. This is especially 
        important for children in diapers.

  2.  Please avoid getting pool water in your mouth, or swallowing it.

      <ctr-circle> Please practice good hygiene.

      <ctr-circle> Please shower with soap before swimming.

  3.  Please wash your hands after using the toilet or changing 
        diapers.

  4.  Please take your children on bathroom breaks and check diapers 
        often.

  5.  Please change diapers in a bathroom or a diaper-changing area, 
        but not poolside.

  6.  Please wash your children thoroughly (especially the buttocks 
        area) with soap and water before swimming.

    Question 5. Are Red Cross lifeguards trained in inspecting grounds 
for faulty wiring and preventing electrocution? Are lifeguards 
certified by Red Cross trained with what they should do if they witness 
someone suffering an electrical shock in a pool?
    Answer. Similar to the answer regarding the VGBA (Question #3), 
facility management and/or pool operators ultimately have 
responsibility for the overall safety of an aquatic facility, which 
includes meeting federal, state and local requirements, including 
compliance with electrical codes. The electrical systems of an aquatic 
facility should be inspected regularly by a licensed electrician as 
state and local electric codes are strict about the position of 
electrical outlets and use of electrical devices around pools.
    The Red Cross Lifeguard Management course teaches that electrical 
shock is a potential danger in the operation of aquatic facilities. 
Conducting and documenting a safety check of electrical equipment 
should be included as part of a daily or weekly maintenance routine.
    In the event of an electrical shock, lifeguards are trained to 
remove the victim from the water then respond to the condition of the 
victim, including providing full CPR if the victim is not breathing and 
does not have a pulse.

                                  [all]

                  This page intentionally left blank.


      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
